  DEPARTMENT OF HOMELAND SECURITY

     Office of Inspector General



     A Review of the Assistance to Firefighters
                  Grant Program




Office of Inspections, Evaluations & Special Reviews

OIG-ISP-01-03                        September 2003
                                               Preface


The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established
by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, investigative, and special reports
prepared by the OIG periodically as part of its oversight responsibility with respect to DHS to
identify and prevent fraud, waste, abuse, and mismanagement.

This report is the result of an assessment of the strengths and weaknesses of the program,
operation, or function under review. It is based on interviews with employees and officials of
relevant agencies and institutions, direct observations, and a review of applicable documents.

The recommendations herein, if any, have been developed on the basis of the best knowledge
available to the OIG, and have been discussed in draft with those responsible for implementation.
It is my hope that this report will result in more effective, efficient, and/or economical operations.
I express my appreciation to all of those who contributed to the preparation of this report.




Clark Kent Ervin
Acting Inspector General
                                                                                                                        Contents

  Introduction.................................................................................................................................... 3

  Results in Brief .............................................................................................................................. 3

  Background .................................................................................................................................... 4

  Purpose, Scope, and Methodology.................................................................................................. 6

  Program Goals, Priorities, and Grant Criteria are Prudently Developed....................................... 7

  Application Solicitation is Adequate, Grant Process is Competitive, and Application
  Review is Equitable ..................................................................................................................... 13

  Opportunities Exist to Enhance Program Effectiveness and Capabilities ................................... 17
        Greater Detail is Required to Demonstrate Financial Need............................................. 18
        Declaration of Other Federal Funding Sources is Essential ............................................ 20
        Mutual Aid Agreements and Regional Approaches Promote Interoperability................. 22
        AFG Monitoring of Grant Recipients Should be Enhanced ............................................ 24
        Development of Performance Measures is Necessary..................................................... 27
        Needs Assessment Findings Should be Used to Define Program Priorities ......................28
        Possible Confusion Exists Between the Fire Prevention and Safety Program
            and the AFG Program ................................................................................................ 30
        Coordination Between Other Federal First Responder Grant Programs and the
            AFG Program is Necessary to Maximize Available Funding .................................... 31

Appendices

  Appendix A:                FY 2001 AFG Program Priorities and Rating Criteria.................................... 34
  Appendix B:                FY 2002 AFG Program—Total Applications, Funds Requested,
                             Awards, and Funds Awarded ........................................................................... 37
  Appendix C:                FY 2002 AFG Program Application and Award Statistics.............................. 39
  Appendix D:                Items Authorized Under the AFG Program that are also Authorized
                             Under the State Homeland Security Grant Program....................................... 40
  Appendix E:                Highlights of the USDA Assessment of the FY 2001 AFG Program ............. 48
  Appendix F:                Management Comments ................................................................................. 50
  Appendix G:                OIG Evaluation of Management Comments…………………………………59
  Appendix H:                Recommendations........................................................................................... 64



                          A Review of the Assistance to Firefighters Grant Program                                                              Page 1
Contents

   Appendix I:   Major Contributors to this Report................................................................... 65
   Appendix J:   Report Distribution ......................................................................................... 66

Abbreviations

   AFG            Assistance to Firefighters Grant Program
   CBRNE         Chemical, Biological, Radiological, Nuclear, and Explosive
   CDC           Center for Disease Control, U.S. Department of Health and Human Services
   DHS           Department of Homeland Security
   EMS           Emergency Medical Services
   FEMA          Federal Emergency Management Agency
   FY            Fiscal Year
   NFIRS         National Fire Incident Reporting System
   NFPA          National Fire Protection Association
   NOFA          Notice of Funds Availability
   ODP           Office for Domestic Preparedness
   OIG           Office of Inspector General
   OSHA          Occupational Safety and Health Administration, U.S. Department of Labor
   PA            Public Assistance
   PPE           Personal Protective Equipment
   U.S.C.        United States Code
   USDA          United States Department of Agriculture
   USFA          United States Fire Administration
   SCBA          Self-Contained Breathing Apparatus
   SHSGP         State Homeland Security Grant Program
   TEP           Technical Evaluation Panel
   WMD           Weapons of Mass Destruction




Page 2                            A Review of the Assistance to Firefighters Grant Program
OIG                                                                                       ISP
                                                                                         Report
Department of Homeland Security
Office of Inspector General


    Introduction
              The Assistance to Firefighters Grant (AFG) program identifies fire departments that lack
              the tools and resources necessary to protect the health and safety of firefighting personnel
              and the public they serve, and provides direct financial assistance to meet these needs.
              Grants are awarded annually to eligible fire departments that most closely address the
              program’s priorities, demonstrate financial need, and maximize the benefits to be derived
              from the grant funds. Under the Department of Homeland Security (DHS), the United
              States Fire Administration (USFA), a component of the Federal Emergency Management
              Agency (FEMA), administers the AFG program. In fiscal year (FY) 2003, Congress
              appropriated $750 million for the program’s implementation.



    Results in Brief
              USFA has taken prudent steps to determine basic needs to enhance fire service
              capabilities, establish program priorities, and develop specific eligibility and rating
              criteria. In addition, USFA has used many methods to inform, solicit, and educate
              eligible applicants about the AFG program, succeeded in achieving a balanced
              distribution of funding through a competitive grant process, and established an
              application review process that is equitable and dynamic.

              There are opportunities, however, to enhance the program’s overall effectiveness.
              Specifically, USFA, in coordination with FEMA’s grants management office, needs
              to: (1) require greater detail to determine a fire department’s financial need; (2) require
              applicants to declare other federal funding sources to avoid potential duplication of
              assistance; (3) promote mutual aid and regional approaches to enhance interoperability;
              (4) improve monitoring of grant recipients to ensure expectations and responsibilities are
              met; (5) develop performance measures to assess the program’s long-term effect; (6) use
              needs assessment findings as an additional tool to define program priorities and eligibility
              criteria; and (7) clarify the distinction between the Fire Prevention and Safety program
              and the Fire Prevention program category of the AFG program.




                   A Review of the Assistance to Firefighters Grant Program                             Page 3
                    A summary of USFA’s written comments in their entirety is included as appendix
                    F. USFA accepted three of our recommendations, is taking initial steps towards
                    implementing three additional recommendations, disagreed with three other
                    recommendations, and deferred one recommendation to FEMA’s grants management
                    office for resolution. The OIG evaluation of USFA’s written comments is included as
                    appendix G.



Background
                    In 2001, FEMA, through USFA, was authorized under the Federal Fire Protection and
                    Control Act of 1974 (the Act),1 to administer the Assistance to Firefighters Grant (AFG)
                    program. This program provides one-year grants directly to local fire departments
                    to protect the health and safety of the public and firefighting personnel against fire
                    and fire-related hazards. In addition, the Act gave USFA discretion to make grants to
                    organizations that are recognized for their experience and expertise with respect to fire
                    prevention or fire safety programs and activities, and to give priority to those programs
                    that focus on the prevention of injuries to children.

                    The Act directed USFA to establish an office to administer the AFG program and set
                    up criteria for the selection of grant recipients. Categories for which funding can be
                    provided include the hiring and training of additional firefighting personnel, establishing
                    wellness and fitness programs for firefighting personnel, modifying fire stations and fire
                    training facilities, and funding emergency medical services provided by fire departments.
                    At least five percent of funds are to be used for fire prevention, and the amount that can
                    be spent on firefighting vehicles is limited to a maximum of 25 percent of appropriated
                    funds. Also, volunteer and combination2 fire departments are to receive a proportion of
                    the total grant funding that is not less than the proportion of the United States population
                    they protect.

                    Eligible applicants for the AFG program are limited to paid, volunteer, and combination
                    fire departments that have a formal arrangement with a state, local, or tribal authority to
                    provide fire suppression for a population within a fixed geographical area. A municipality
                    or fire district may submit an application on behalf of a fire department when the fire
                    department lacks the legal status to do so, such as where the fire department falls
                    within the auspices of the municipality or district. When a municipality or fire district
                    submits an application on behalf of a fire department, the fire department is precluded


1
    15 U.S.C. 2201 et seq., as amended.
2
    “Combination” fire departments are fire departments that have both volunteer and paid firefighter personnel.


Page 4                                      A Review of the Assistance to Firefighters Grant Program
from submitting an application on its own. In addition, a fire department can apply for
assistance for its emergency medical services unit, provided the unit falls organizationally
under the auspices of the fire department.

Once submitted, all eligible applications are ranked using a scoring methodology based
on AFG program priorities established annually by USFA. Applicants that best address
the program’s priorities score higher than applicants that do not address the established
priorities. Applications that score the highest are deemed in the “competitive range” and
receive a second level of technical review. Panelists evaluate the narrative portion of the
application for the clarity of the proposed project, the financial need of the applicant, and
the benefits that would result if the grant were awarded.

The Act mandates the distribution of funds between career applicants and combination
career/volunteer applicants. USFA has developed procedures to ensure that either all
volunteer firefighting personnel or combined volunteer and career firefighting personnel
receive a portion of the total grant funding available that is not less than the proportion of
the United States population they protect and serve. Throughout the evaluation process
conducted by panelists, career applicants compete against other career applicants, while
volunteer and combination applicants compete among each other for available funding.
The maximum federal share for grant awards is $750,000.

USFA, based on the recommendation of evaluation panelists, recommends applicants
to be contacted by the FEMA grants management office. Grants management officials
review the applications and use a standard checklist to ensure that each is reviewed in
every critical area, such as cost reasonableness. Once completed, the grants management
officials conduct a pre-award contact with the applicant to review requirements of the
proposed grant and then make the formal award.

If selected, applicants must agree to:

§   a 30 percent cost-share, if serving a jurisdiction with a population over 50,000, or ten
    percent, if serving a jurisdiction with a population less than 50,000;
§   maintain operating expenditures for the one-year grant period in the area funded by
    the grant at a level equal to or greater than the average of the applicant’s operating
    expenditures in the two fiscal years preceding the year in which the grant is received;
§   ensure that all procurement actions are conducted in a manner that provides open and
    free competition;




     A Review of the Assistance to Firefighters Grant Program                           Page 5
                  §   submit six-month and close-out financial and performance reports; and
                  §   provide information to USFA’s National Fire Incident Reporting System (NFIRS).3

                  Once grants are awarded, FEMA grants management officials assist USFA in the
                  implementation of the AFG program by distributing awards, monitoring grant recipients,
                  and facilitating award closeouts.

                  In FY 2001, approximately 1,855 grants were awarded in six grant categories totaling
                  approximately $92 million; Congress appropriated $100 million. In FY 2002,
                  approximately 5,314 grants were awarded in four grant categories totaling approximately
                  $334 million; Congress appropriated $360 million. Congress appropriated a total of $750
                  million to the AFG program for distribution in FY 2003 as well as in FY 2004.4


Purpose, Scope, and Methodology

                  Our review of the AFG program was designed to determine whether protocols and
                  eligibility criteria have been established and observed in the evaluation and assessment of
                  an applicant’s basic needs to enhance the capabilities of the fire service as a whole. The
                  OIG analyzed the following:

                  •   Documentation pertinent to the AFG program, including program guidance, policy
                      memorandums, grant criteria development meeting notes, Federal Register notices,
                      grant applications and instructions, plans for application evaluations, technical
                      evaluation protocols, Internet websites, and various news articles;
                  •   Federal Fire Protection and Control Act of 1974 (15 United States Code 2201 et seq.);
                  •   National Defense Authorization Act, Fiscal Years 2001, 2002, and 2003;
                  •   Code of Federal Regulations Title 44—Emergency Management and Assistance, Part
                      152—Assistance to Firefighters Grant Program;
                  •   “A Needs Assessment of the U.S. Fire Service,” a cooperative study by FEMA and the
                      National Fire Protection Association, December 2002;
                  •   Protecting Our Nation - The Immediate Needs of America’s Fire Service, Annex
                      to Third Annual Report to the President and the Congress of the Advisory Panel to
                      Assess Domestic Response Capabilities for Terrorism Involving Weapons of Mass
                      Destruction (Gilmore Commission Report), December 15, 2001;

3
  NFIRS has two objectives: (1) to help state and local governments develop fire reporting and analysis capability for their
use; and (2) to obtain data that can be used to assess more accurately and subsequently combat the fire problem at a national
level.
4
  Each fiscal year, USFA has been provided between three and five percent of appropriated funding to administer the AFG
program.


Page 6                                   A Review of the Assistance to Firefighters Grant Program
                 •    Information contained in the Assistance to Firefighters Grant program computer
                      system;
                 •    FY 2003 State Homeland Security Grant Program Guidance;
                 •    Office of Justice Programs State and Local Domestic Preparedness Grant Programs,
                      Department of Justice, Office of Inspector General report, March 2002.

                 The OIG interviewed FEMA and USFA officials, including the USFA Deputy
                 Administrator, and staff of USFA’s National Fire Programs Division and FEMA’s
                 Financial and Acquisition Management Division. The OIG conducted telephone
                 conference calls with nine of the ten USFA Regional Fire Program Specialists as well
                 as with representatives from the International Association of Fire Chiefs, the National
                 Volunteer Fire Council, the National Fire Protection Association, the International
                 Association of Arson Investigators, the International Society of Fire Service Instructors,
                 the North American Fire Training Directors, and the Congressional Fire Service Institute.
                 The OIG obtained information from a representative of the International Association of
                 Fire Fighters. The OIG also interviewed officials at the U.S. Department of Homeland
                 Security, Office for Domestic Preparedness.

                 The OIG attended one AFG workshop for applicants for FY 2003, where USFA presented
                 information on the program and the application process, and the OIG observed the first
                 week of the FY 2003 technical evaluation of grant applications. The OIG did not conduct
                 site visits of grant recipients. Our fieldwork was conducted from February 2003 to May
                 2003. This inspection was conducted under the authority of the Inspector General Act
                 of 1978, as amended, and according to the Quality Standards for Inspections issued
                 by the President’s Council on Integrity and Efficiency, the association of presidentially
                 appointed Inspectors General.



Program Goals, Priorities, and Grant Criteria are Prudently Developed
                 In FY 2001, USFA developed and implemented the AFG program within nine months.
                 During this abbreviated period, in partnership with fire service organizations,5 USFA
                 established grant evaluation criteria meeting legislative requirements; identified the
                 highest needs of the fire service as a whole; marketed awareness, priorities, and goals of
                 the program to the fire service; created, solicited, processed, and evaluated applications;

5
 The following organizations participated in the development of the AFG program: International Association of Fire Chiefs;
International Association of Fire Fighters; National Volunteer Fire Council; National Fire Protection Association; National
Association of State Fire Marshals; International Association of Arson Investigators; International Society of Fire Service
Instructors; North American Fire Training Directors; and Congressional Fire Service Institute.



                       A Review of the Assistance to Firefighters Grant Program                                      Page 7
         and obligated funding. The Act allows discretion in funding eligible categories. Rather
         than attempt to fund all 14 eligible categories established by the Act, USFA initially
         selected six categories representing the highest needs of the fire service as program
         priorities. Fire departments, referred to as “applicants,” could submit applications for two
         of the following six program priority categories:

         Ø Training
           Training firefighting personnel in firefighting, emergency response, supervision and
           safety, arson prevention and detection, handling of hazardous materials, or training
           firefighting personnel to provide training in any of these areas. Training funds may be
           used to purchase training curricula, training equipment and props, training services, or
           to pay for attendance at formal training forums.

         Ø Wellness and Fitness
           Establishing and/or equipping wellness and fitness programs for firefighting
           personnel, including the procurement of medical services to ensure that the
           firefighting personnel are physically able to carry out their duties (purchase of
           medical equipment is not eligible under this category).

         Ø Firefighting Vehicles
           Acquiring additional firefighting vehicles, including fire apparatus or refurbishing
           apparatus currently owned.

         Ø Firefighting Equipment
           Acquiring additional firefighting equipment, including equipment for individual
           communications and monitoring (integrated communications systems are not
           eligible).

         Ø Personal Protective Equipment
           Acquiring personal protective equipment required for firefighting personnel by OSHA
           and other equipment needed by firefighting personnel.

         Ø Fire Prevention
           Establishing or enhancing a fire prevention program.

         For each of the six grant program categories, USFA developed specific priorities and
         rating criteria in consultation with members of the fire service and representatives of
         fire service organizations. Applications, only available in paper for FY 2001, required
         applicants to answer general as well as activity-specific questions. The application
         narrative included a project description, an explanation of any budgetary expenses for



Page 8                      A Review of the Assistance to Firefighters Grant Program
                 each category selected, a statement of information that demonstrated financial need for
                 the assistance, and a brief analysis of the benefits to be derived from the funding request.

                 All applications were manually entered into a database and scored by computer using
                 numeric rank order based on applicant responses to category specific questions. This
                 scoring was used to determine which applications qualified for the “competitive range”
                 and warranted a second level of review by a panel of peer evaluators.6 Applicants that
                 best addressed the category specific questions in relation to the established program
                 priorities had a significantly higher probability of having their application deemed in
                 the competitive range. There were two factors that determined whether applications
                 were deemed in the competitive range: numeric rank order and available funding.
                 USFA attempted to panel applications for approximately double the amount of available
                 funding.

                 Scores were based on proposed uses that would result in the greatest benefit. For
                 example, in the Training category, a higher program priority was given to the direct
                 delivery of training than to the purchase of training materials and equipment. Applicants
                 that focused on direct delivery of training, therefore, received a higher competitive rating.
                 In addition, the funding of basic firefighting training was believed to have a greater
                 cost benefit than funding more specialized training. Applicants that focused on basic
                 firefighting training, accordingly, received a higher competitive rating. Applicants that
                 focused on statutorily required training also received a higher rating than non-mandatory
                 or strictly voluntary training. Finally, applicants that focused on projects that benefit the
                 highest percentage of personnel within their fire department or that would be open to
                 other departments in their region were rated higher than those that did not. (A complete
                 list of FY 2001 program priorities and rating criteria is presented in Appendix A.)

                 USFA, in FY 2001, targeted allocated funding to each of the selected program categories
                 in order to expedite processing and make the full implementation of the new AFG
                 program possible within the nine month period. As a result of declaring specific funding
                 levels for each category, USFA made awards to fulfill the targeted funding levels for
                 categories with fewer submitted applications at the expense of other more compelling
                 applications for other categories with a higher number of submitted applications.
                 Recognizing this deficiency, USFA decided not to target allocated funding to AFG
                 program categories after FY 2001.




6
 Panels that evaluate the merits of AFG program applications are comprised of members from the fire service and
representatives of fire service organizations.



                       A Review of the Assistance to Firefighters Grant Program                                   Page 9
                 In FY 2001, USFA received 31,295 grant applications from 18,915 applicants. The
                 total funding requested was approximately $3 billion. Of the 7,500 highest scoring
                 applications that were deemed in the competitive range, 1,855 grants totaling
                 approximately $92 million were awarded.7 The awards made by grant program category
                 for FY 2001 are summarized below.8

                                                             Number of     Percentage of Total
                  Categories                                                                     Amount of Awards
                                                              Awards            Awards
                  Training                                      160               6%                    $5,199,356.48
                  Wellness & Fitness                            168               9%                    $8,256,720.15
                  Vehicles                                      208               22%                  $20,412,605.57
                  Fire Prevention                               209               10%                   $9,071,484.60
                  Fire Fighting Equipment                       404               16%                  $14,919,463,89
                  Personal Protective Equipment                 706               37%                  $34,136,809.27
                  TOTAL                                        1,855             100%                  $91,996,439.96


                 USFA, in consultation with members of the fire service and representatives of fire service
                 organizations, assessed the program’s implementation, the application, and the evaluation
                 processes at the end of FY 2001. As a result, some perceived program barriers were
                 changed. For FY 2002, in addition to USFA’s no longer targeting allocated funding,
                 applicants were: (1) afforded only one application; (2) limited to four eligible program
                 priority categories, instead of the six of FY 2001; and (3) allowed to apply for a number
                 of related “activities” to address needs within one of the program priority categories.

                 In FY 2002, applicants could submit only one grant application for one of the four
                 following program priority categories:

                 Ø Fire Operations and Firefighter Safety Program
                   Eligible activities are training, wellness and fitness, firefighting equipment, and
                   personal protective equipment.

                 Ø Fire Prevention Program
                   Eligible activities include public education and awareness activities, fire codes
                   enforcement activities, fire inspector certifications, purchase and installation of smoke
                   alarms and fire suppression systems, and arson prevention and detection activities.


7
 Report on Assistance to Firefighters Grant Program for FY 2001, October 9, 2001.
8
 Data provided by USFA AFG program office, of FY 2001 grant recipients, excludes data from the Fire Prevention and
Safety program.


Page 10                                     A Review of the Assistance to Firefighters Grant Program
                Ø Emergency Medical Services Program
                  Eligible activities, for fire-based EMS units, are equipment and training. Vehicles,
                  such as ambulances, are not eligible in this category.

                Ø Firefighting Vehicles Acquisition Program
                  Eligible apparatus include, but are not limited to, pumpers, brush trucks, tankers,
                  rescue vehicles, ambulances, quints, aerials, foam units, and boats.

                Program priorities and specific rating criteria for each grant category were similar to
                FY 2001. Applicants submitted electronic applications via USFA’s Internet website and
                answered a series of questions designed to provide general information about themselves
                and their community. Depending on the program and activities requested, applicants
                also answered a series of activity-specific questions. The applications were numerically
                ranked based on their responses to these questions. When applying for more than one
                activity in a selected program category, each activity was scored separately, and prorated
                based on requested funding levels. For example, if an applicant applied under the Fire
                Operations and Firefighter Safety program category for $8,000 in training and $2,000 in
                firefighting equipment, the training portion of the proposal represented 80 percent of the
                score and the firefighting equipment acquisition represented 20 percent of the score. The
                number of activities included in an application did not provide applicants with either an
                advantage or disadvantage in the evaluation process.

                Applicants who addressed program priorities scored higher than applicants who did not
                address the priorities. Applications scoring the highest were determined to be in the
                competitive range and qualified for review by technical evaluation panelists.9 These
                panelists evaluated the narrative of each application, as well as the responses to the
                general and activity-specific questions. Applicants provided details on activities proposed
                for funding and a budget detailing each activity in the narrative portion of the application.
                The narrative also described the financial need of the applicant, and elaborated on the
                benefits derived by the applicant and the community.

                For FY 2002, of 19,595 applications totaling approximately $2.2 billion in total
                project costs, 9,200 were determined to be in the competitive range and were reviewed
                by technical evaluation panelists. As of January 27, 2003, 5,314 grants totaling
                approximately $335 million had been awarded. The number of applications received and
                awards made per grant program category are illustrated below.10
9
  USFA examines the applications that were determined to be in the competitive range before the technical evaluation
panelists evaluate them in order to ensure the likelihood of achieving funding parameters established by the Act.
10
   FY 2003 Assistance to Firefighters Grant Program Workshop at the National Emergency Management Training Center,
March 26, 2003, for applications, and USFA AFG program office, March 2003, for awards and award amounts, excludes data
from the Fire Prevention and Safety program.


                      A Review of the Assistance to Firefighters Grant Program                                Page 11
                                                                    Number of     Number of       Percentage of       Amount of
                    Categories
                                                                   Applications    Awards         Total Awards         Awards
                    Fire Operations & Firefighter Safety Program     11,527          4,732              89%           $281,523,796
                    Fire Prevention Program                            504           215                4%             $10,927,059
                    Firefighting Vehicles Acquisition Program         7,165          314                6%             $39,099,565
                    Emergency Medical Services Program                 398            53                1%              $3,069,736
                    TOTAL                                            19,595          5,314              100%          $334,620,156


                   USFA assessed the application and evaluation processes at the end of FY 2002. As a
                   result of integrating lessons learned from FY 2001, the FY 2003 program mirrors that of
                   FY 2002 with only minor changes. All the program areas and activities available in FY
                   2002 are eligible for funding in FY 2003 under the same four categories. In addition,
                   Modifications to Fire Stations and Facilities were incorporated in Fire Operations and
                   Firefighter Safety program category, and the Wellness and Fitness Activity was added
                   under the Emergency Medical Services program category.

                   In addition, feedback from fire service members and representatives of fire service
                   organizations on previous AFG programs suggested realistic priorities for funding should
                   be based on the type of applicant and community served. As a result, with the FY 2003
                   program, USFA classifies applicants as rural, suburban, or urban. This designation allows
                   for a better comparison of needs, especially in the Firefighting Vehicles Acquisition
                   program category and, to a lesser extent, in the Fire Operations and Firefighter Safety
                   program category.

                   In FY 2003, 20,131 applications were received requesting approximately $2.5 billion
                   in funding.11 Of these, 15,000 were determined to be in the competitive range and were
                   evaluated by technical evaluation panelists. The number of applications received by
                   program category and the total funds requested is summarized below.

                                                                    Number of     Percentage of Total
                    Categories                                                                            Total Funding Requested
                                                                   Applications      Applications
                    Fire Operations & Firefighter Safety Program     13,884                69%                      $1,405,918,614
                    Fire Prevention Program                            429                 2%                          $30,343,798
                    Firefighting Vehicles Acquisition Program         5,602                28%                      $1,053,373,989
                    Emergency Medical Services Program                 216                 1%                          $17,132,832
                    TOTAL                                            20,131             100%                        $2,506,769,233


                   The AFG program is only in its third year. Based on the actions discussed above and our
                   interviews and review of source documents, the OIG concludes that USFA succeeded

11
     Data provided by USFA AFG program office, May 28, 2003.


Page 12                                       A Review of the Assistance to Firefighters Grant Program
                 in its efforts to determine the basic needs to enhance fire service capabilities, establish
                 program priorities, and develop specific eligibility and rating criteria. During the course
                 of our review, the OIG found the program staff to be dedicated and enthusiastic about
                 the program. The OIG makes no recommendations regarding these features of the AFG
                 program.


Application Solicitation is Adequate, Grant Process is Competitive, and Application
Review is Equitable

                 USFA has used many methods to inform, solicit, and educate eligible applicants;
                 succeeded in achieving a balanced distribution of funding through a competitive grant
                 process; and, established an application review process that is equitable and dynamic.


        Application Solicitation is Adequate

                 USFA, in FY 2001 and FY 2002, published a notice of interim final rule making in
                 the Federal Register establishing guidance and outlining the goals and priorities of the
                 AFG program. Regulations and program guidance have been developed to inform
                 applicants of the application process, program priorities, and criteria used in making
                 awards. Also, USFA disseminated information regarding the program and availability
                 of funds through numerous press releases to the public, broadcasts on the Emergency
                 Education NETwork,12 e-mails to those subscribed to the USFA e-mail list, and made
                 announcements to members of the fire service and fire service organizations.

                 Until FY 2003, USFA could publish only an interim final rule and implementing
                 regulations because the program was in development. For FY 2003, however, USFA
                 published a final rule that provided program guidance. In addition, the program’s
                 priorities were restated in a Notice of Funds Availability (NOFA) published in the Federal
                 Register. Officials anticipate publishing a NOFA in subsequent years while the finale rule
                 will remain in effect.

                 In addition, before and during the application period, USFA offered a toll-free telephone
                 number for technical assistance manned by knowledgeable personnel. USFA established
                 an Internet based e-mail capability to answer questions and address concerns about the
                 program, application, and eligibility criteria. Also, AFG program specialists conducted


12
  The Emergency Education NETwork is a satellite-based distance learning system used by FEMA to bring interactive
training programs and information to communities nationwide.


                      A Review of the Assistance to Firefighters Grant Program                                 Page 13
                approximately 316 applicant workshops throughout the United States for FY 2003. A
                workshop presentation was available over the Internet for applicants unable to attend in
                person.

                For FY 2002 and FY 2003, eligible applicants were able and encouraged to make
                application for the AFG program grant funds online using USFA’s “e-grants” application
                process, which is accessible from the USFA Internet website. The AFG system was
                designed and developed as a two way grants and program management interface
                to handle every phase of grants and program management from application intake,
                application processing, obligation of grant funds, monitoring and reporting, to grant
                closeout. Although paper applications were allowed, fewer than 70 paper applications
                were submitted for both years.

                The AFG system allows an applicant to log in, create a user name, password, and prepare
                an application. The online application includes general questions about each applicant,
                the community served, proposed grant project, and includes an electronic version of
                various federally approved grant forms. The application can be saved and retrieved
                as needed during the preparation process. Once the application has been submitted,
                however, it cannot be changed.

                In FY 2002 and FY 2003, automated applications with built-in “help screens” and “drop-
                down menus” were used to assist applicants throughout the application process. Another
                feature of the 2002 and 2003 AFG system is that it does not allow an applicant to submit
                an incomplete application, as the system alerts the applicant when required information
                has not been provided. Additionally, by submitting applications online, the applicant is
                automatically notified, via e-mail by USFA, when the application is received.

                The OIG believes USFA has used many avenues to inform, solicit, and educate eligible
                applicants about the availability of the AFG program and that program goals, priorities,
                and eligibility criteria are clearly stipulated. In our assessment, applicants have sufficient
                information to understand the expectations necessary to prepare a grant application.


          Grant Process is Competitive

                The AFG program is a competitive grant process open to all applicants who meet USFA’s
                definition of an eligible paid, volunteer, or combination fire department. The grants are
                awarded to applicants who best address program priorities, demonstrate financial need,
                and maximize the benefits to be derived from the grant funds.




Page 14                             A Review of the Assistance to Firefighters Grant Program
                    Each year, applicants may apply for funding even if they received previous AFG program
                    awards. USFA officials said the rationale for allowing applicants to apply each year is
                    that needs may not have been addressed adequately with previous funding. For example,
                    in FY 2001, an applicant may have applied for two grants, one in the Personal Protective
                    Equipment program category to purchase “turnout gear” and another in the Training
                    program category to learn basic firefighting techniques. However, USFA may have
                    awarded only one grant for the actual purchase of the equipment. USFA will consider
                    new requests by previous grant recipients and will take into account performance on prior
                    grant awards when making final funding decisions on current applications.

                    Throughout the panelist evaluation process, career applicants compete against other
                    career applicants, and volunteer and combination applicants compete among each other
                    for the available funding. Even though there are three different types of applicants, there
                    are two applicant categories: (1) career; and (2) volunteer and combination. Program
                    legislation mandates a minimum funding level for combination/volunteer departments.
                    Although the Act does not mandate minimum funding of career departments, USFA
                    has developed procedures to ensure that either all volunteer and combined firefighting
                    personnel or career firefighting personnel receive a portion of the total grant funding
                    available that is not less than the proportion of the United States population they protect
                    and serve. These proportions are derived each year from most recent survey data
                    conducted by the National Fire Protection Association. In FY 2002, the proportion
                    was up to 45 percent for career applicants and at least 55 percent for volunteer and
                    combination applicants. In FY 2003, it is up to 46 percent for career applicants and at
                    least 54 percent for volunteer and combination applicants.

                    The primary basis for award decisions is competitive using rank order.13 USFA might
                    deviate from rank order, however, to ensure adequate distribution of awards among the
                    three types of applicants and communities with different characteristics (urban, suburban,
                    or rural), as well as an equitable geographic distribution.14 In addition to USFA’s
                    discretionary decision to use rank order, the Act mandates that USFA devote at least five
                    percent of the available funding to fire prevention grants. It may be necessary to modify
                    rank order to select a sufficient number of awards to comply with this requirement. In
                    addition, USFA may not award grants for vehicles in excess of 25 percent of available
                    funding. Once this limit is reached, USFA must deviate from rank order with respect to
                    the remaining requests to fund vehicles.

                    The OIG analyzed information on all FY 2002 grant applications and awards to determine
                    the amount of funding requested, funding awarded, type of applicant, type of program,

13
     Applications are ranked from highest to lowest according to their average score awarded by technical evaluation panels.
14
     USFA uses a state as the basic geographic unit or boundary.


                          A Review of the Assistance to Firefighters Grant Program                                     Page 15
                 and the geographic distribution of funds awarded and grant recipients. (See Appendices
                 B and C.) Our analysis shows that there was a balanced distribution of funding to
                 volunteer and combination applicants or career applicants. The demographic distribution
                 of funding did not appear to favor any state or type of applicant.


          Two Levels of Application Evaluation Is Equitable

                 In selecting applications for award, each application is evaluated for eligibility based
                 on the program priorities. During this first level of review, applications are evaluated
                 electronically based upon responses to activity-specific questions and assigned a numeric
                 score. Applications that address program priorities and are deemed in the competitive
                 range advance to a second level of review. Applications that are not deemed in the
                 competitive range do not advance.

                 The second level of review is conducted using technical evaluation panels (TEPs),
                 comprised of members from the fire service and representatives of fire service
                 organizations, who manually assess and evaluate the merits of each application.15 The
                 involvement of these organizations during this level of review as well as during the
                 development, evaluation, and modification of the AFG program eligibility criteria
                 and program priorities is an inherent strength of the program. The knowledge of the
                 members of these fire service organizations not only benefits USFA in the effective and
                 efficient administration of the program, but also affords applicants an impartial review
                 of the merits of their applications by the collective experiences of peers in assessing and
                 addressing their needs and capabilities.

                 By the end of April each year, USFA convenes TEPs to review applications that are
                 deemed to be competitive. Each member of the TEPs must sign and affirm a conflict of
                 interest statement and agree to withdraw from the evaluation of an applicant with which
                 the member might have affiliation. TEPs review the entire application, with particular
                 attention to the narrative section, to determine whether the application demonstrates
                 effectiveness in achieving the protection of the health and safety of the public and
                 firefighting personnel against fire and fire related hazards.

                 TEPS are provided guidelines to use when evaluating the following three elements of
                 each application narrative: clarity of the proposed project, including budget detail;



 Each fiscal year, USFA uses a portion of program administrative costs to cover the travel and lodging expenses incurred by
15

TEPs. TEPs volunteer their time and services to review AFG program applications.


Page 16                                 A Review of the Assistance to Firefighters Grant Program
                    financial need; and, the benefits that would result if the grant were awarded.16 The
                    TEPs consider all expenses budgeted, including administrative and/or indirect, as part
                    of their cost benefit review. Each application is reviewed in its entirety and compared
                    against established evaluation criteria, not against other applications. At least three
                    members of the TEPs independently score the three elements of each narrative, consider
                    answers to the general and activity-specific application questions, and discuss the merits/
                    shortcomings of the application in order to reconcile any major discrepancies; however,
                    a consensus on the score is not required. The scores of the TEPs are added together, then
                    divided by the number of members evaluating the application to arrive at the final score.

                    Applications are ranked, starting with the highest numeric score. The highest scoring
                    applications are then reviewed by USFA to resolve any questions or outstanding issues
                    the TEPs might have raised. After reviewing the applications, USFA takes into account
                    the Act’s legislative requirements, funding for specific program categories, and the
                    geographic distribution of funds. This process is traditionally completed by early June
                    each year.

                    The OIG observed the TEP review process for the FY 2003 grant applications and believe
                    reasonable efforts are made to conduct the evaluation of applications without bias or
                    favoritism and that the process appears fair, consistent, and, most importantly, responsive
                    to the particular needs of the applicant in relation to program priorities. The approach
                    applied to develop and implement the AFG program offers the potential to enhance the
                    program’s overall effectiveness because members of the firefighting community conduct
                    the application evaluation.



Opportunities Exist to Enhance Program Effectiveness and Capabilities
                    Even though the AFG program has been prudently developed and directed, and appears
                    to be addressing the basic needs and capabilities of the fire service as a whole, there are
                    ways to enhance the program’s overall effectiveness.




16
     Each element carries equal weight when factored into the final application score.


                          A Review of the Assistance to Firefighters Grant Program                        Page 17
          Greater Detail is Required to Demonstrate Financial Need

                According to the program guidance, the narrative of the application should not only
                provide the details of activities that an applicant proposes and the benefits that will be
                realized from the expenditure of grant funds, but should also describe financial need.

                The FY 2002 and FY 2003 AFG program guidance and applications instruct applicants
                that the program narrative must demonstrate their financial need for assistance and
                explain why the proposed project cannot be funded solely through local funding or their
                own resources. No further instructions, details, or examples are provided in the program
                guidance and applications. As a result, applicants present a varying level of detail when
                attempting to demonstrate adequately their financial need. In the narrative statements
                of the FY 2002 applications, some applicants demonstrated financial need by discussing
                components of their annual operating budgets. For example, one applicant wrote, “The
                budget for our fire department is $2.7 million, of which 93 percent is for personnel
                services. The remaining 7 percent ($189,000) is used for all other operating expenses,
                including vehicle repair and repairs and maintenance of two fire stations, utilities, and fire
                equipment. The town is also very reluctant to fund any items not specifically required
                by law.” Many other applicants, however, provided limited financial information, if any
                at all, when demonstrating financial need. For example, one applicant wrote, “State and
                local funds are few and far between.”

                Currently, TEPs assess an applicant’s financial need based on a comparison of
                responses to specific application questions pertaining to the applicant’s budget against
                demonstration of financial need provided in the narrative. In both the FY 2002 and
                FY 2003 AFG program applications, there are two required questions that address an
                applicant’s operating budget: “What is the percentage of your annual operating budget
                that is dedicated to personnel costs?” and “What percentage of your annual operating
                budget is derived from: Taxes? Grants? Donations? Fund Drives?” An additional
                question was added to the FY 2003 program application: “What was your department’s
                estimated average operating budget over the last three years?” While the answers
                to these three questions might give some indication of an applicant’s financial need,
                additional budget information is required to enable the TEPs to conduct a more complete
                analysis of financial need.

                For example, by answering these three questions, an applicant might report that its
                average operating budget from a combination of taxes and donations is $400,000
                and 75 percent ($300,000) is dedicated to personnel costs. To score the application
                equitably, however, TEPs need an understanding as to the use of the remaining 25 percent
                ($100,000). The lack of specific details about an applicant’s budget invites interpretive



Page 18                             A Review of the Assistance to Firefighters Grant Program
speculation and can result in inequities in scoring. As an illustration, while two separate
TEPs may both agree that an applicant’s narrative statement like, “Our fire department
can’t afford this piece of equipment,” does not adequately demonstrate financial need, one
TEP group might give the application a score of “0” for demonstration of financial need,
while another TEP group might give a score of “60.” Both TEPs score the application
at a level they believe reflects the applicant’s inability to demonstrate financial need
adequately; however, the differences in scoring causes the overall scores to differ
significantly.

USFA officials stated that when developing the AFG program they debated what
information applicants should be required to supply to demonstrate financial need.
Although they considered collecting the past two budgets of applicants, USFA and FEMA
grants management officials rejected the idea because they wanted to keep the application
process as simple as possible. Currently, however, unless applicants give specific details
about their operating budgets in the application narrative, it is difficult for TEPs to obtain
a true sense of an applicant’s financial need. If future applicants are required to submit
details about the components of their operating budgets from the past two years, a better
demonstration of financial need will be presented and the TEPs could complete a more
detailed analysis resulting in less subjectivity during the scoring process.

In addition to a better demonstration of financial need, collecting detailed information
on operating budgets will provide USFA and FEMA grants management officials with
the necessary information to ensure that grant recipients are complying with the Act’s
“maintenance of operating expenditures” requirement upon receiving a grant. Under
this requirement, applicants must agree to maintain operating expenditures for the one-
year grant period in the areas funded at a level equal to or greater than the average of
their operating expenditures in the two fiscal years preceding the year in which the
assistance is received. Because applicants are not required to provide their past two-year
budgets, USFA is unable to determine whether grant recipients are maintaining operating
expenditures and complying with the statute. USFA and FEMA grants management
officials recognize that this is a deficient area and, as a result, have drafted a statement
of work for the purpose of accomplishing the following tasks through an independent
contractor:

Ø A clarification description will be developed to define the meaning of “maintenance
  of operating expenditures” and how to apply it to meet Congressional intent;

Ø USFA and FEMA grants management officials will assess a statistically representative
  sample of FY 2001 and FY 2002 grant recipients in order to ascertain and document




     A Review of the Assistance to Firefighters Grant Program                         Page 19
                     grant recipient abilities to adhere to the maintenance of operating expenditures
                     requirement;

                 Ø Using the results of the audit, USFA and FEMA grants management officials will
                   develop monitoring questions and/or a questionnaire to provide the necessary
                   monitoring tools for future desk reviews and site visits specifically to address the
                   maintenance of operating expenditures requirement.

                 Successful completion of the tasks described above coupled with requiring greater
                 budgetary detail on the applications should afford USFA and FEMA grants management
                 officials the means to validate compliance with the “maintenance of operating
                 expenditures” requirement.

                 Recommendation

                 The OIG recommends that the Administrator of the U.S. Fire Administration:

                 1. Require AFG program applicants to provide detailed information on their operating
                 budgets from the previous two years. This would allow TEPs to conduct a more
                 complete analysis of financial need and would provide the means to validate grant
                 recipients’ compliance with the Act’s “maintenance of operating expenditures”
                 requirement.


          Declaration of Other Federal Funding Sources is Essential

                 USFA will not provide assistance under the AFG program for activities for which another
                 federal agency has provided assistance. In addition, when providing assistance, USFA
                 must ensure that duplication of benefits does not occur between its assistance programs
                 and assistance programs provided by other federal agencies. Currently, there are several
                 other federal grant programs that have the potential to duplicate activities and items
                 funded under the AFG program. For example, there are 113 distinct items authorized for
                 funding under DHS Office for Domestic Preparedness (ODP), State Homeland Security
                 Grant program17 that are also authorized for funding under the AFG program. These
                 items are in the areas of personal protective equipment, interoperable communications
                 equipment, detection equipment, and decontamination equipment. A complete list of
                 equipment is shown in Appendix D.

17
  The State Homeland Security Grant Program provides funds for specialized equipment to help fire departments, law
enforcement agencies, emergency medical services, hazardous materials response units, and other emergency response
agencies in all 50 states and U.S. territories to better respond to incidents of domestic terrorism.


Page 20                                A Review of the Assistance to Firefighters Grant Program
When completing the AFG program application, applicants have the option to answer
the following question that would indicate potential duplicate benefits: “This fiscal
year, are you receiving federal funding from any other grant program for the same
purpose for which you are applying for this grant?” If an applicant chooses to answer
this question, they have the option of answering “yes” or “no.” While most applicants
answer “no,” some applicants choose not to answer the question. Of the FY 2002
AFG program applicants, 84 chose not to answer the question. Of these 84 applicants,
17 (20 percent) were awarded grants totaling approximately $634,500 and potentially
were recipients of duplicate benefits. In addition, some applicants answered “yes.”
Of the FY 2002 applicants 83 that answered “yes,” 27 (33 percent) were awarded
grants totaling approximately $2,400,000. Each of these 27 grant recipients, with the
exception of one, was awarded the full amount requested in their application. Using a
Completeness Review Checklist, FEMA grants management officials review applications
for completeness. While they may follow up on applicants who answer “yes” during the
completeness review, there is no specific question on the Completeness Review Checklist
that requires FEMA grants management officials to obtain more information from
applicants about other federal funds received. Therefore, those 27 grant recipients that
answered “yes” may also be recipients of funds that potentially duplicate AFG program
grants. While these statistics might appear insignificant, the OIG believes the potential
for duplication will grow as funding from other first responder grant programs increases.

As a result of the Federal Financial Assistance Management Improvement Act of 1999,
the Office of Management and Budget proposed a policy requiring all federal agencies
to use a common identifying number for all federal grant applicants and grantees. The
process of using a common unique identifying number would allow all federal agencies
to track an applicant or a particular grant or grantee throughout the entire lifecycle of
an award. In addition, a universal identifier would make it easier to identify potential
duplicate benefits. Until such a process is developed and successfully implemented,
however, applicants should be required to answer the question, now only optional,
that seeks to identify a possible duplication of benefits. In addition, a question needs
to be added to the Completeness Review Checklist to ensure the collection of detailed
information about other federal funding from applicants answering “yes.” These two
changes could aid in the determination of whether there is a duplication of benefits.

Recommendations

The OIG recommends that the Administrator of the U.S. Fire Administration:

2. Require AFG program applicants to answer the following question: “This fiscal year,
are you receiving federal funding from any other grant program for the same purpose for
which you are applying for this grant?”

    A Review of the Assistance to Firefighters Grant Program                       Page 21
               The OIG recommends that the Under Secretary of the Emergency Preparedness and
               Response Directorate:

               3. Add a mandatory question on the Completeness Review Checklist that will ensure
               FEMA grants management specialists validate other federal funding sources to ensure
               that those funds are not for the same purpose as the funds requested under the AFG
               program.


          Mutual Aid Agreements and Regional Approaches Promote Interoperability

               “Interoperability” within the fire service means having communications and related
               systems and firefighting equipment that are compatible with those of other departments.
               Having the ability to communicate and work together is a critical safety issue for the fire
               service and a significant factor in overall effectiveness.

               According to the FY 2003 program guidance, applicants can demonstrate cost benefit
               in their narratives by describing how the grant award would (1) fit in with a regional
               approach, i.e., is consistent with the current capabilities and requests of neighboring fire
               departments or otherwise benefits other fire departments in the region; and (2) promote
               interoperability of equipment and technology with other fire departments and federal,
               state, and local first responders. In addition, during the FY 2003 program workshops,
               USFA informed applicants that projects promoting interoperability would be given
               priority.

               Mutual aid agreements between fire departments contribute to the safety of emergency
               personnel and citizens by providing an opportunity for neighboring jurisdictions to assist
               in providing personnel and resources to overwhelmed counterparts during emergency
               situations. In addition to defining response team personnel and resources, creating
               and updating mutual aid agreements requires participating departments to have an
               awareness of one another’s personnel, equipment, and technological resources. As a
               result, mutual aid agreements can be an important mechanism to address equipment and
               communications interoperability.

               Although some fire departments do not participate in mutual aid agreements, perhaps
               for territorial reasons, it is common knowledge among members of the fire service and
               representatives of fire service organizations that many fire departments have mutual
               aid agreements. Most of those agreements, however, are verbal. According to a small
               audience and limited study done by a USFA Regional Fire Program Specialist, of 99
               surveyed fire departments in Delaware, Pennsylvania, Virginia, and West Virginia, 39


Page 22                            A Review of the Assistance to Firefighters Grant Program
                (39 percent) of fire departments do not have written mutual agreements.18 In addition,
                according to a survey conducted by USFA and the National Fire Protection Association
                (NFPA), most fire departments do not have written agreements to direct use of non-local
                response resources.19

                The absence of a written mutual aid agreement may result in a lack of adequate planning
                and communication, which can prevent interoperability. Written mutual aid agreements
                between cooperating neighboring fire departments are devices to share information and
                plan and coordinate comprehensive resource interoperability.

                The participation in written mutual aid agreements also allows for fire departments to
                receive federal disaster assistance from FEMA when the President declares a federal
                disaster. FEMA’s Public Assistance (PA) program reimburses mutual aid agreement costs
                associated with emergency or disaster assistance only when the mutual aid agreement
                is in written form and signed by authorized officials of the agreeing parties prior to the
                disaster.

                DHS is starting an initiative that will develop a National Incident Management
                System. This system emphasizes mutual aid across jurisdictional and geographic
                lines, centered on an incident command system across the nation. Regional written
                mutual aid agreements are the foundation of an integrated national incident response
                network that enables local, state, federal, and volunteer organizations to operate together
                without interruption. It stands to reason, therefore, that the AFG program should stress
                participation in written mutual aid agreements in concert with its priority on funding
                interoperable communications and firefighting equipment requests. Also, written mutual
                aid agreements would provide the foundation for assistance from FEMA.

                Recommendation

                The OIG recommends that the Administrator of the U.S. Fire Administration:

                4. Give additional weight to AFG program applicants that have regional written mutual
                aid agreements.




18
   “Mutual Aid Agreements: An All Hazards Tool to Community Risk Reduction,” FEMA Region III Fire Program Specialist,
March 2003.
19
   USFA Website, FEMA, USFA, and NFPA National Study Identifies Service Gaps in America’s Fire Departments, January
22, 2003.


                      A Review of the Assistance to Firefighters Grant Program                               Page 23
          AFG Monitoring of Grant Recipients Should be Enhanced

                 Both the USFA program and FEMA grants management officials have separate
                 monitoring plans in place, make contact with grant recipients, and make limited site
                 visits. These plans and efforts, however, can be improved to ensure that a greater number
                 of AFG grant recipients meet grant terms and conditions.

                 FEMA Grants Monitoring

                 After USFA has approved an application for award, FEMA’s grants management office
                 contacts the applicant by telephone to verify information on the application. Using a
                 Completeness Review Checklist, FEMA grants managers: (1) confirm the applicant still
                 wants the grant award; (2) affirm the applicant has the required cost share or that a plan
                 exists for obtaining the cost share; (3) confirm the applicant will report to NFIRS; (4)
                 verify the point of contact; and (5) verify there is no history of suspensions or debarments
                 and noncompliance with the Single Audit Act of 1984. Additional questions may be
                 asked of the applicant based on comments provided by TEPs or USFA officials.

                 During the review process, grants management officials evaluate the entire application
                 (using program guidance, Federal Register notices, regulations, etc.) and review
                 the narrative and budget for vague, unsupported, or excessive costs that require
                 documentation or further discussion. Should problems arise, FEMA grants management
                 officials work with the applicant to obtain resolution. Once all outstanding issues
                 have been satisfactorily resolved, applicants are informed of the grant award. After
                 announcement, grant recipients must complete and return to FEMA Form 1199A (Direct
                 Deposit), to facilitate the deposit of funds into the applicants’ accounts. Once direct
                 deposit is approved, grant recipients may request payment using the AFG system.20 Prior
                 to payment, the system verifies that grant recipients do not request more funding than
                 authorized. Grant recipients are required to spend funds within 30 days of request.

                 Six months after award, recipients complete a semiannual financial performance report
                 and explain the current status and progress made on the award, irrespective of whether
                 funds have been requested or spent. An award must be used within one year of approval.
                 Closeout may be accomplished at anytime after funds have been disbursed. To closeout
                 the grant award, recipients send their final financial status report and performance report
                 through the AFG system. These reports are reviewed to ensure conformity with the


20
  The AFG system, USFA’s “e-grants” system, is a two-way grants and program management interface to handle every phase
of grants and program management from application intake, application processing, obligation of grant funds, monitoring and
reporting, to grant closeout.


Page 24                                 A Review of the Assistance to Firefighters Grant Program
original intent of the award and statement of work. Finally, AFG program officials will
send a letter and e-mail to the recipient informing them that the award is closed.

Grants management officials are able to query the AFG system and run reports on
recipients that have not submitted semiannual financial and performance reports.
Internet e-mails are sent to applicants prior to the due date informing recipients of
this requirement. Without timely submission of reports, USFA would not have the
opportunity of using this report as an additional tool to assess whether funds are being
used as intended by the grant award. The OIG analyzed FY 2002 data from the AFG
system for all grant recipients in two grant tiers: (I) awards of $200,000 and above,
and (II) awards between $30,000 and $50,000. The OIG assessed whether recipients’
semiannual performance reports were timely and if not, whether funds were drawn down.
In total, as of April 30, 2003, 45 (23 percent) out of 194 recipients in tier I and 77 (11
percent) out of 708 recipients in tier II did not submit timely semiannual performance
reports. In addition, 21 (11 percent) out of 194 recipients in tier I, totaling $5,471,925
in funding, had not submitted semiannual performance reports but had drawn down
funds (15 due in February 2003 and six due in March 2003). As of April 30, 2003,
54 (8 percent) out of 708 recipients in tier II, totaling $2,317,754, had not submitted
semiannual performance reports but had drawn down funds (six due in January 2003,
32 due in February 2003, and 16 due in March 2003). Currently, USFA allows grant
recipients to withdraw funds without submitting timely semiannual performance reports.

USFA Grants Monitoring

In FY 2002, USFA developed a monitoring plan to provide: (1) feedback on the
implementation of the AFG program; (2) definition of programmatic issues, and (3)
assistance to grant recipients with respect to an efficient and effective expenditure
of grant funds. In addition, the objective of USFA’s monitoring effort is to establish
and maintain contact with as many grant recipients as practicable and to determine
compliance with grant responsibilities. In order to achieve this, USFA uses Regional
Fire Program Specialists, sometimes accompanied by FEMA grants management staff, to
contact as many grant recipients as possible and conduct a limited number of site visits.

Contacts based on the following regimen and rationales are made and documented online
in the AFG system:

1. Introduction – Contact with as many grant recipients as possible is made, via
   telephone or e-mail, following the grant award. Each grant recipient contacted
   is encouraged to implement its program and offered assistance with any grant
   implementation problems that arise.



    A Review of the Assistance to Firefighters Grant Program                        Page 25
          2. Six-Month Evaluation – Grant recipients are notified, via e-mail, five months after the
             grant award date that a performance report is due prior to the seventh month of the
             grant award date. Regional Fire Program Specialists contact grant recipients that do
             not submit this report.

          3. Telephone Review – Regional Fire Program Specialists facilitate a telephone review
             with 30 percent of the grant recipients in their region. A simplified version of the
             site visit checklist is used in contacts with grant recipients while reviewing grant
             expectations and procedures over the telephone. Telephone contact with a balance of
             rural, urban, and suburban grant recipients is attempted.

          After a purchase is made or program(s) implemented by a recipient, limited site visits are
          made to the following recipients:

          ü Any recipient that is recommended by AFG program officials for a site visit;
          ü Recipients of an award in both FY 2001 and FY 2002 that did not receive a site visit
            in FY 2001;
          ü Recipients that received an award exceeding $300,000;
          ü Four to seven percent of the total recipients in each region, selected randomly, for
            each fiscal year (site visits from the above are included within these percentages).
            These visits reflect a balance of the rural, urban, and suburban grant recipients, as
            well as a balance of program areas.

          Site visits include an examination of grant files for completeness of the following items:
          application, award letter, 76-10a (obligation document), grant agreement, approvals, bids
          and quotes, ledgers, documentation of expenditures, copies of cancelled checks, paid
          invoices, payrolls, time and attendance records, contract records, etc. In addition, an
          examination is typically conducted of vehicles, equipment, and/or services purchased.

          Several Regional Fire Program Specialists stated that they have the goal of performing
          more site visits than the minimum four to seven percent required by the monitoring
          plan, as they believe the percentage is too low to ensure adequate monitoring of grant
          recipients. Several other Regional Fire Program Specialists advised us that they are
          already performing more telephone contacts and site visits than required by the current
          plan. If each Regional Fire Program Specialist made the required minimum four percent
          site visits of the total grant recipients within their region, only 213 of the 5,314 recipients
          in FY 2002 would be visited. This threshold, in our opinion, is too low to ensure the
          efficient and effective expenditure of funds. By increasing the minimum number of site
          visits required of the Regional Fire Program Specialists, the integrity of the program
          would be enhanced through improved performance and fiscal responsibility.



Page 26                       A Review of the Assistance to Firefighters Grant Program
     Recommendations

     The OIG recommends that the Administrator of the U.S. Fire Administration:

     5. Enforce the timely submission of semiannual financial and performance reports by
     suspending the draw down of funds until the required reports have been submitted in
     according to program guidance.

     6. Increase, to the extent that staffing capability permits, the minimum AFG program
     grant recipient site visits performed by USFA Regional Fire Program Specialists.


Development of Performance Measures is Necessary

     According to USFA officials and fire service organization representatives, the AFG
     program is administered well and program funds are dedicated to the basic needs of the
     nation’s fire service. In addition, as a part of a baseline assessment of the results of the
     FY 2001 program, USFA joined the U.S. Department of Agriculture (USDA) to assess the
     quality and effectiveness of the AFG program’s grant process. As part of the assessment,
     a team from USDA’s 2002-2003 Leadership Development Academy Executive Potential
     Program conducted a survey of FY 2001 grant recipients. Overall, the results of the
     survey reflect that the AFG program is highly effective in improving the readiness and
     capabilities of firefighters across the nation. (Appendix E is a summary of comments
     from the survey on the AFG program’s value and success.)

     Based on the results of the survey, the AFG program appears to be addressing the basic
     needs of the fire service. The long-term effect that the AFG program has had upon
     fire departments as well as communities, however, needs to be studied and measured.
     Quantifiable performance measures, such as life and economic losses due to fire and
     related emergencies, frequency and severity of fires, length of time when responding to
     emergencies, and the number of fire prevention educational initiatives, need to be gauged.
     With the development and implementation of performance measures, USFA should be
     able to evaluate the AFG program’s success in achieving strategic goals and objectives,
     ensure continuous program improvement, and supply Congress with critical information
     needed to support appropriation decisions.

     The U.S. Department of Health and Human Services’ Center for Disease Control (CDC),
     National Center for Injury Prevention and Control, Unintentional Injury Prevention
     Division, monitors trends in unintentional home and recreation injuries, including those
     caused by residential fires. USFA officials, in collaboration with CDC, are developing a


         A Review of the Assistance to Firefighters Grant Program                        Page 27
                    statement of work that will establish an interagency agreement to examine how the fire
                    prevention activities supported by the AFG program are affecting communities with fire
                    departments that received AFG program grants. In addition to collecting measurable fire
                    loss data in communities across the nation, plans for this multi-year effort also include
                    assessing whether the outreach focus of fire prevention methodologies and activities are
                    positively affecting those communities, causing a change of attitude of the communities’
                    population with respect to fire and fire related hazards.

                    This collaborative effort between USFA and CDC is a step in the right direction. With
                    well-defined performance measures, USFA will have the tools to assess the AFG
                    program’s effectiveness in addressing the basic needs and capabilities of the fire service
                    and its effect on communities throughout the nation.

                    Recommendation

                    The OIG recommends that the Administrator of the U.S. Fire Administration:

                    7. Continue efforts to develop, formalize, and implement short and long term
                    performance measures to ensure that the AFG program is addressing the needs and
                    capabilities of the fire service as a whole and is affecting recipient communities in a
                    positive manner.


           Needs Assessment Findings Should be Used to Define Program Priorities

                    The FY 2001 National Defense Authorization Act21 requires the Director of FEMA to
                    conduct a study in conjunction with the NFPA to define the current role and activities
                    associated with the fire service; determine the adequacy of current levels of funding; and,
                    provide a needs assessment to identify shortfalls. As a result, in December 2002, USFA
                    and NFPA issued the report, “A Needs Assessment of the U.S. Fire Service.” Based on
                    survey results of approximately 8,416 fire departments, the assessment identifies specific
                    areas where additional resources and capabilities are needed to enhance more effectively
                    the fire service, both in traditional response and in the new arena of challenges involving
                    homeland security. USFA interpreted the assessment and found:

                    Ø Many of the nation’s fire departments do not have enough fire stations to achieve
                      widely recognized response time guidelines and lack key equipment, prevention
                      programs, and a wide range of training;

21
     P.L.106-398, Section 1701, Sec 33 (b).



Page 28                                       A Review of the Assistance to Firefighters Grant Program
                 Ø Approximately a third of all firefighters per shift are not equipped with self-contained
                   breathing apparatus (SCBA);
                 Ø Most fire departments do not have the ability to handle unusually challenging
                   incidents with local specialized resources and do not have written agreements to
                   ensure availability of use of non-local response resources;
                 Ø In general, fire departments do not have enough portable radios to equip more than
                   about half of the emergency responders on a shift and most radios lack intrinsic safety
                   features for use in an explosive atmosphere and are and not water-resistant.22

                 The use of fire service organization representatives to establish AFG program priorities
                 and grant evaluation criteria already has resulted in AFG program funds being used to
                 address some of the needs identified in the assessment. Because the needs assessment
                 is based on survey responses from a larger universe of fire service members and
                 representatives of fire service organizations, USFA could use it as an additional tool to
                 identify deficiencies in basic fire service capabilities. The needs assessment might also
                 be used to define AFG program priorities and evaluation criteria that will enhance fire
                 service capabilities and firefighter safety. This would further ensure that funds are being
                 used to address the most pressing needs of the nation’s fire service.

                 For example, according to the needs assessment, some of the greatest deficiencies
                 of fire departments are in activities that prevent fires and other emergencies from
                 occurring or that moderate their severity when they do occur. Of the estimated 26,354
                 fire departments across the nation,23 20,656 or 78 percent that protect approximately 49
                 percent of the population do not perform routine testing of active prevention systems
                 (e.g., sprinkler, detection/alarm, smoke control). In addition, 21,877 or 83 percent that
                 protect approximately 48 percent of the population do not have a Juvenile Firesetter24
                 program.25 While each of these shortfalls would be addressed under the current AFG
                 program category of “Fire Prevention,” USFA officials should consider these and other
                 activities and items identified in the needs assessment when annually establishing the
                 AFG program priorities and a scoring methodology by assigning a higher rating to
                 applications proposing funding for these specific activities and items.


22
   USFA Website, FEMA, USFA, and NFPA National Study Identifies Service Gaps in America’s Fire Departments, January
22, 2003.
23
   From the National Fire Protection Association’s list of local fire departments in the United States used in the December
2002 needs assessment.
24
   A Juvenile Firesetter program focuses on developing prevention education resources, providing training on early
identification of firesetters, and intervention and treatment resources for troubled firesetters. The program works in
partnership with fire service, law enforcement, and social service agencies in servicing the needs of children and youth in
local communities..
25
   “A Needs Assessment of the U.S. Fire Service,” a cooperative study authorized by U.S. Public Law 106-398 and conducted
by FEMA and NFPA, December 2002.

                       A Review of the Assistance to Firefighters Grant Program                                    Page 29
                 Recommendation

                 The OIG recommends that the Administrator of the U.S. Fire Administration:

                 8. Use “A Needs Assessment of the U.S. Fire Service” as an additional tool when defining
                 AFG program priorities and evaluation criteria.


          Possible Confusion Exists Between the Fire Prevention and Safety Program and
          the AFG Program

                 The Act requires that grants for fire prevention programs total at least five percent
                 of appropriated funds each year the program is authorized. In addition to the Fire
                 Prevention program category of the AFG program, USFA has discretion to fulfill
                 this requirement, with the Fire Prevention and Safety program, by funding grants to
                 “organizations that are recognized for their experience and expertise in fire prevention
                 and fire safety programs with priority given to organizations that focus on prevention
                 of injuries to children.”26 USFA counts funding from both the Fire Prevention and
                 Safety program and the Fire Prevention program category to meet the Act’s five percent
                 requirement. Having two programs provides USFA flexibility in making fire prevention
                 awards to both fire departments and organizations.

                 Under the Fire Prevention and Safety program, USFA sets aside a portion of AFG
                 program funds to make awards to, or enter into contracts or cooperative agreements with,
                 national, state, local or community organizations or agencies, including fire departments,
                 for the purpose of carrying out fire prevention and injury prevention programs. The
                 program focuses on the prevention of injuries to certain high risk populations, i.e.,
                 children under 14, seniors over 65, and firefighters.

                 Even though there is a separate application, application period, and audience for the
                 Fire Prevention and Safety program, greater distinction needs to be made between this
                 program and the Fire Prevention program category eligible for funding under the AFG
                 program. Federal Register notices, program guidance, media announcements, and
                 workshop presentations fail to make clear that two separate programs exist to fund fire
                 prevention activities and initiatives. The relationship between the programs is further
                 clouded because fire departments are eligible to apply for both programs, while other
                 organizations may apply only to the Fire Prevention and Safety program.

26
  Federal Emergency Management Agency’s United States Fire Administration Report on the Assistance to Firefighters Grant
Program for FY 2001, October 9, 2001.



Page 30                                A Review of the Assistance to Firefighters Grant Program
     Recommendation

     The OIG recommends that the Administrator of the U.S. Fire Administration:

     9. Expressly advise all potential AFG program applicants that there is a separate
     application, application period, and set of eligibility criteria for the Fire Prevention and
     Safety program.


Coordination Between Other Federal First Responder Grant Programs and the AFG
Program is Necessary to Maximize Available Funding

     In the aftermath of September 11, 2001, the importance of the first responder community,
     of which the fire service plays an integral and paramount role, became even more
     apparent to the American public. The needs and capabilities of the first responder have
     never before been as fully appreciated. The levels of appropriations for the AFG program
     made by Congress—$100 million in FY 2001, $360 million in FY 2002, $750 million in
     FY 2003, and a proposed $750 million in FY 2004—illustrate Congress’ commitment to
     the fire service community to enhance its basic needs and capabilities.

     There are several other federal grants programs that fund first responder training,
     activities, and equipment to prepare states and local communities better for responding to
     terrorism incidents, natural disasters, and other emergencies. Close coordination between
     those programs and the AFG program is essential to ensure that: (1) duplication does
     not occur; (2) maximum effectiveness of available funding is realized; and (3) minimum
     confusion exists at state and local levels of government. In the future, enhanced
     coordination is particularly important as first responder funding is expected to increase.

     A post-September 11, 2001, amendment to the Act allows AFG program funding to
     be used for equipment and training for response to terrorism incidents or weapons of
     mass destruction. However, according to USFA officials, fire service members, and
     representatives of fire service organizations, the fire service should first use this funding
     to enhance basic response capability. Once basic firefighting capability is established
     throughout the fire service, additional and more specialized response capabilities would
     be pursued. Until then, USFA, in cooperation and collaboration with the fire service,
     expects to continue to establish AFG program funding priorities that focus on addressing
     basic firefighting needs to enhance overall capability.

     Another major federal funding source for the first responder community is DHS ODP
     State Homeland Security Grant program (SHSGP) that funds specialized equipment


          A Review of the Assistance to Firefighters Grant Program                          Page 31
                  and training to assist law enforcement agencies, fire departments, emergency medical
                  services, hazardous materials response units, and other emergency response agencies for
                  better response to incidents of domestic terrorism. Congress appropriated $600 million
                  to the SHSGP for FY 2003. SHSGP funding is awarded to states, which, in turn, sub-
                  grant the funds to local first responders. Receipt of these funds is contingent upon DHS
                  approval of states’ domestic preparedness strategies. Grants are based on current census
                  data and provided annually to each state and territory; DHS ODP awards approximately
                  56 grants each year and funds are allocated within each state according to a required
                  statewide needs assessment.

                  The goal of the SHSGP is to provide funding to enhance the capacity of state and local
                  jurisdictions to respond to, and mitigate the consequences of, incidents of domestic
                  terrorism involving the use of a chemical, biological, radiological, nuclear, or explosive
                  (CBRNE) weapon. ODP officials said that, while some items are authorized by both
                  programs, the program is not intended to fund equipment and training to establish basic
                  capabilities for firefighters or the fire service. For example, SHSGP would not fund basic
                  “turnout gear” or firefighting apparatus. Instead, SHSGP funds specialized equipment
                  and training for terrorism response and CNRNE associated capabilities.

                  There are four funding categories for SHSGP grants: Equipment; Exercise; Training, and
                  Planning. In the Equipment category, funds may be used to enhance capabilities of state
                  and local first responders through the acquisition of: (1) personal protective equipment;
                  (2) explosive device mitigation and remediation equipment; (3) CBRNE search & rescue
                  equipment; (4) interoperable communications equipment; (5) detection equipment; (6)
                  decontamination equipment; (7) physical security enhancement equipment; (8) terrorism
                  incident prevention equipment; (9) CBRNE logistical support equipment; (10) CBRNE
                  incident response vehicles; (11) medical supplies and limited types of pharmaceuticals;
                  and (12) CBRNE reference materials.27 This equipment may be used by a state to
                  enhance capabilities in the areas of law enforcement, fire, emergency medical services,
                  hazardous materials, public works, public health, emergency management and hospitals
                  (public and private) at the state and local levels of government according to the goals and
                  objectives identified in a state’s domestic preparedness strategy.

                  While the USFA and ODP program reflect different objectives, the potential exists that
                  certain items, eligible for funding from both programs, may be provided to the same
                  applicant. There is a potential overlap of 113 distinct items in the areas of personal
                  protective equipment, interoperable communications equipment, detection equipment,
                  and decontamination equipment. Coordination is necessary to realize the separate, yet


27
     FY 2003 DHS Office of Domestic Preparedness SHSGP Guidance.


Page 32                                A Review of the Assistance to Firefighters Grant Program
common, goals of each program in addressing the basic versus specialized response
capability of the first responder. The creation of DHS affords officials of both programs
the opportunity to share, educate, and appreciate the uniqueness of each program and to
enhance coordination that maximizes efforts and resources in addressing the basic and
specialized needs of the first responder.




    A Review of the Assistance to Firefighters Grant Program                       Page 33
Appendix A
FY2001 AFG Program Priorities and Rating Criteria



             The following were USFA’s priorities and rating criteria as specified in the FY 2001 AFG
             program guidance:

             Training

             We (USFA) believe that more benefit is derived from the direct delivery of training than
             from the purchase of training materials and equipment. Therefore, applications focused
             on direct delivery of training, including train-the-trainer initiatives, will receive a higher
             competitive rating. We also believe that funding of basic firefighting training (i.e.,
             training in basic firefighting duties or operating fire apparatus) has greater cost benefit
             than funding of officer or safety officer training, which in turn has a higher rating than
             specialized training. We will also accord higher rating to applicants seeking to implement
             statutorily required training rather than non-mandatory or strictly voluntary training.
             Finally, we will rate more highly those proposed programs that benefit the highest
             percentage of targeted personnel within a fire department or those proposed programs that
             will be open to other departments in their region.

             Wellness and Fitness Programs

             We believe that in order to have an effective wellness/fitness program, fire departments
             must offer both an entry physical examination and an immunization program.
             Accordingly, applicants for grants in this category must currently offer both benefits,
             or must propose to initiate both a physical examination and an immunization program
             with these grant funds in order to receive additional funding for either of these purposes.
             We believe the greatest benefit will be realized by supporting new wellness and fitness
             programs, and therefore, we will accord higher competitive ratings to those applicants
             lacking wellness/fitness programs over those applicants that already possess a wellness/
             fitness program. Finally, since participation is critical to achieving any benefits from a
             wellness or fitness program, we will give higher competitive rating to departments whose
             wellness and fitness programs mandate participation as well as programs that provide
             incentives for participation.

             Vehicles

             We believe that more benefit will be realized by funding fire departments that own few
             or no firefighting apparatus than by providing funding to a department with numerous
             vehicles. Therefore, we will give higher competitive rating in the apparatus category
             to fire departments that own few or no firefighting vehicles. We will also give higher
             competitive rating to departments that have not recently purchased a new firefighting
             vehicle, and departments that wish to replace an old, high-mileage vehicle or a vehicle



Page 34                          A Review of the Assistance to Firefighters Grant Program
Appendix A
FY2001 AFG Program Priorities and Rating Criteria



                    that has sustained a high number of responses. We do not believe that there is sufficient
                    cost benefit from expenditures for vehicles with ladder or aerial apparatus and will not
                    accord positive competitive standing to applications proposing such purchases.

                    Firefighting Equipment

                    We believe that this grant program will achieve the greatest benefits if we provide funds
                    to fire departments purchasing basic firefighting equipment (never owned prior to grant)
                    to bring their departments up to the applicable minimum (i.e., as required by statute,
                    regulation, or professional firefighting guidance), rather than to the department that is
                    replacing equipment or enhancing capabilities. Because of the obvious benefits, we will
                    also give higher competitive rating to departments that are mainly purchasing firefighting
                    equipment with design feature intended to protect the safety of the firefighters.

                    Personal Protective Equipment

                    We believe that we must fund those applicants needing to provide personal protective
                    equipment (PPE) to a high percentage of their personnel. Accordingly, we will give a
                    high competitive rating in this category to fire departments in which a large percentage of
                    active firefighting staff do not have any personal protective equipment and to departments
                    that wish to purchase enough PPE to equip 100 percent of their active firefighting staff.
                    We will also give a higher competitive rating to departments that are purchasing the
                    equipment for the first time as opposed to departments replacing obsolete or substandard
                    equipment (i.e., equipment that does not meet current NFPA and OSHA standards), or
                    purchasing equipment for a new mission.

                    Fire Prevention Programs

                    We believe that the public as a whole will receive greatest benefit from fire prevention
                    funds channeled to fire departments that currently do not have a prevention program.
                    Also, we believe the public will benefit greatly from long-term fire prevention programs
                    as opposed to limited efforts. Therefore, we will give a higher competitive rating to
                    programs that will be self-sustaining after the grant period. Because of the benefits to be
                    attained, we will give a higher competitive rating to programs that target one or more of
                    USFA’s identified high-risk populations (i.e., children under fourteen years of age, seniors
                    over sixty-five and firefighters), and programs whose impact is/will be periodically
                    evaluated. We believe public education programs and community-based, participatory
                    programs that purchase and install residential and public detection and suppression
                    systems achieve greater benefits than do programs that develop and enforce codes and
                    standards. Public information materials and presentation aids and equipment achieve the



                         A Review of the Assistance to Firefighters Grant Program                       Page 35
Appendix A
FY2001 AFG Program Priorities and Rating Criteria



             least benefit, therefore, these types of activities will be accorded the lowest competitive
             rating.




Page 36                          A Review of the Assistance to Firefighters Grant Program
Appendix B
FY2002 AFG Program - Total Applications, Funds Requested, Awards, and Funds Awarded (data provided by
USFA AFG program office on January 27, 2003)



                                                      Percentage of
                                                      Applications   Total Funds                       Percentage
                             Total        Total        Receiving     Requested in      Total Funds    of Requested
                        Applications FY Awards FY        Awards     Applications FY     Awarded      Funds Awarded
                STATE        2002         2002           FY 2002          2002           FY 2002         FY 2002
       Alabama                      591         201           34.0%      $56,946,949     $12,503,330           22.0%
       Alaska                        82          34           41.5%      $11,386,757      $2,641,900           23.2%
       Arizona                      150          51           34.0%      $16,698,924      $3,600,777           21.6%
       Arkansas                     466         117           25.1%      $30,446,138      $4,635,754           15.2%
       California                   574         187           32.6%      $87,370,314     $19,062,926           21.8%
       Colorado                     242          76           31.4%      $24,451,695      $3,968,992           16.2%
       Connecticut                  222          52           23.4%      $30,256,812      $4,675,754           15.5%
       Delaware                      32           4           12.5%       $4,903,430        $372,374            7.6%
       Florida                      376         129           34.3%      $53,950,080     $10,160,177           18.8%
       Georgia                      397          87           21.9%      $49,689,679      $6,079,220           12.2%
       Hawaii                         5           3           60.0%       $1,779,392      $1,182,263           66.4%
       Idaho                        140          41           29.3%      $14,169,968      $2,744,800           19.4%
       Illinois                     840         223           26.5%      $96,321,795     $13,398,989           13.9%
       Indiana                      547         135           24.7%      $72,844,811      $8,739,068           12.0%
       Iowa                         516         157           30.4%      $44,527,479      $7,284,492           16.4%
       Kansas                       331         108           32.6%      $27,093,981      $5,118,460           18.9%
       Kentucky                     527         114           21.6%      $59,394,227      $7,896,329           13.3%
       Louisiana                    342         146           42.7%      $31,923,412     $10,084,578           31.6%
       Maine                        276          79           28.6%      $31,454,132      $4,319,684           13.7%
       Maryland                     155          41           26.5%      $29,695,253      $4,171,142           14.0%
       Massachusetts                310         102           32.9%      $44,139,261      $8,386,846           19.0%
       Michigan                     662         166           25.1%      $97,662,800      $8,948,447            9.2%
       Minnesota                    507         139           27.4%      $50,772,818      $8,149,475           16.1%
       Mississippi                  450         137           30.4%      $41,294,464      $6,755,656           16.4%
       Missouri                     580         175           30.2%      $60,316,710     $10,291,616           17.1%
       Montana                      234          75           32.1%      $20,429,960      $3,726,809           18.2%
       Nebraska                     222          52           23.4%      $19,827,877      $2,392,162           12.1%
       Nevada                        60          16           26.7%      $11,029,495      $1,446,808           13.1%
       New Hampshire                151          36           23.8%      $14,641,597      $1,887,542           12.9%
       New Jersey                   483          96           19.9%      $59,591,387      $6,339,290           10.6%
       New Mexico                   171          54           31.6%      $20,608,044      $3,463,021           16.8%
       New York                    1167         271           23.2%    $121,786,948      $14,728,985           12.1%
       North Carolina               682         146           21.4%      $82,374,498     $10,239,565           12.4%
       North Dakota                 154          48           31.2%      $12,627,414      $2,613,060           20.7%
       Ohio                         846         200           23.6%    $100,578,869      $13,742,908           13.7%
       Oklahoma                     416         116           27.9%      $29,173,415      $4,939,240           16.9%
       Oregon                       230          78           33.9%      $22,641,115      $4,892,474           21.6%
       Pennsylvania                1586         313           19.7%    $198,335,409      $16,970,079            8.6%
       Rhode Island                  59          15           25.4%       $7,957,632      $1,507,188           18.9%
       South Carolina               325          78           24.0%      $34,087,880      $5,257,960           15.4%
       South Dakota                 214          65           30.4%      $19,064,970      $3,142,886           16.5%



                         A Review of the Assistance to Firefighters Grant Program                           Page 37
Appendix B
FY2002 AFG Program - Total Applications, Funds Requested, Awards, and Funds Awarded (data provided by
USFA AFG program office on January 27, 2003)



Tennessee                   499           186          37.3%       $48,281,426     $11,509,571   23.8%
Texas                       870           248          28.5%       $94,005,350     $15,644,321   16.6%
Utah                        148            52          35.1%       $13,097,321      $2,754,142   21.0%
Vermont                     143            49          34.3%       $12,582,130      $1,971,671   15.7%
Virginia                    337            99          29.4%       $45,405,152      $8,790,202   19.4%
Washington                  334            97          29.0%       $40,095,037      $7,544,087   18.8%
Washington, DC                2             1          50.0%          $415,000        $220,500   53.1%
West Virginia               255            56          22.0%       $32,818,135      $3,966,831   12.1%
Wisconsin                   538           132          24.5%       $53,580,071      $7,518,731   14.0%
Wyoming                      97            26          26.8%       $12,813,875      $1,612,810   12.6%
American Samoa                1             0           0.0%          $585,000              $0    0.0%
Guam                          2             1          50.0%          $127,407         $16,764   13.2%
Puerto Rico                  42             3           7.1%        $8,878,550        $382,500    4.3%
Northern Marianas             3             1          33.3%          $812,916        $225,000   27.7%
Virgin Islands                4             0           0.0%        $2,160,354              $0    0.0%
                         19,595         5,314                   $2,209,905,515    $334,620,156




Page 38                           A Review of the Assistance to Firefighters Grant Program
Appendix C
FY2002 AFG Program Application and Award Statistics



                              Total                                               Total
                              Apps     Number of    Number of      Number of     Awards     Number of     Number of      Number of
                               FY      Paid Dept.    Volunteer    Combination      FY       Paid Dept.    Volunteer     Combination
                STATE        2002*       Apps       Dept. Apps     Dept. Apps    2002**       Awards     Dept. Awards   Dept. Awards
       Alabama                  591      43 (7%)     480 (81%)       68 (12%)        201     28 (14%)      152 (76%)         21 (10%)
       Alaska                    82        4 (5%)     45 (55%)       33 (40%)          34      1 (3%)       21 (62%)         12 (35%)
       Arizona                  150     31 (21%)      45 (30%)       74 (49%)          51    15 (29%)       16 (31%)         20 (39%)
       Arkansas                 466      18 (4%)     401 (86%)       47 (10%)        117       8 (7%)      101 (86%)           8 (7%)
       California               574    152 (26%)     164 (29%)      258 (45%)        188     63 (34%)       44 (23%)         81 (43%)
       Colorado                 242      21 (9%)     139 (57%)       82 (34%)          76       6 (8%)      50 (66%)         20 (26%)
       Connecticut              222     25 (11%)     143 (64%)       54 (24%)          53      9 (17%)      32 (60%)         12 (23%)
       Delaware                  32        1 (3%)     13 (41%)       18 (56%)           4      1 (25%)        1 (25%)          2 (50%)
       Florida                  376    109 (29%)     149 (40%)      118 (31%)        129     47 (36%)       49 (38%)         33 (26%)
       Georgia                  397     45 (11%)     223 (56%)      129 (32%)          87    14 (16%)       46 (53%)         27 (31%)
       Hawaii                      5     3 (60%)        1 (20%)       1 (20%)           3      2 (67%)        0 (0%)           1 (33%)
       Idaho                    140        6 (4%)     96 (69%)       38 (27%)          41      4 (10%)      22 (54%)         15 (37%)
       Illinois                 840    100 (12%)     538 (64%)      202 (24%)        224     41 (18%)      131 (58%)         52 (23%)
       Indiana                  547      46 (8%)     414 (76%)       87 (16%)        135     18 (13%)       94 (70%)         23 (17%)
       Iowa                     516      18 (3%)     463 (90%)        35 (7%)        157       8 (5%)      135 (86%)           14 (9%)
       Kansas                   331      22 (7%)     252 (76%)       57 (17%)        108       5 (5%)       83 (77%)         20 (19%)
       Kentucky                 527      33 (6%)     414 (79%)       80 (15%)        114       10 (9%)      89 (78%)         15 (13%)
       Louisiana                342      31 (9%)     217 (63%)       94 (27%)        146     19 (13%)       91 (62%)         36 (25%)
       Maine                    276      11 (4%)     192 (70%)       73 (26%)          79       4 (5%)      54 (68%)         21 (27%)
       Maryland                 155        4 (3%)    101 (65%)       50 (32%)          42      2 (5%)       26 (62%)         14 (33%)
       Massachusetts            310    103 (33%)      75 (24%)      132 (43%)        102     48 (47%)       16 (16%)         38 (37%)
       Michigan                 662     98 (15%)     378 (57%)      186 (28%)        166     32 (19%)       87 (52%)         47 (28%)
       Minnesota                507      14 (3%)     449 (89%)        44 (9%)        139       9 (6%)      118 (85%)           12 (9%)
       Mississippi              450      31 (7%)     372 (83%)       47 (10%)        138       9 (7%)      116 (84%)           13 (9%)
       Missouri                 580     60 (10%)     415 (72%)      105 (18%)        176      19 (11%)     121 (69%)         36 (20%)
       Montana                  234        8 (3%)    209 (89%)        17 (7%)          75      6 (8%)       65 (87%)           4 (5%)
       Nebraska                 222        6 (3%)    204 (92%)        12 (5%)          52      4 (8%)       46 (88%)           2 (4%)
       Nevada                    60        5 (8%)     37 (62%)       18 (30%)          16      2 (13%)        7 (44%)          7 (44%)
       New Hampshire            151      13 (9%)      84 (56%)       54 (36%)          36      4 (11%)      20 (56%)         12 (33%)
       New Jersey               483      37 (8%)     365 (76%)       81 (17%)          96    17 (18%)       55 (57%)         24 (25%)
       New Mexico               171      14 (8%)     133 (78%)       24 (14%)          54      7 (13%)      39 (72%)           8 (15%)
       New York               1,167      47 (4%)    1059 (91%)        61 (5%)        271       14 (5%)     240 (89%)           17 (6%)
       North Carolina           682      38 (6%)     457 (67%)      187 (27%)        146     23 (16%)       80 (55%)         43 (29%)
       North Dakota             154        4 (3%)    141 (92%)          9 (6%)         48      2 (4%)       43 (90%)           3 (6%)
       Ohio                     846    122 (14%)     491 (58%)      233 (28%)        200     49 (25%)       91 (46%)         60 (30%)
       Oklahoma                 416      32 (8%)     318 (76%)       66 (16%)        116     12 (10%)       92 (79%)         12 (10%)
       Oregon                   230        7 (3%)    109 (47%)      114 (50%)          79      4 (5%)       33 (42%)         42 (53%)
       Pennsylvania           1,586       34(2%)    1452 (92%)       100 (6%)        315       11 (3%)     284 (90%)           20 (6%)
       Rhode Island              59     15 (25%)      23 (39%)       21 (36%)          15      6 (40%)        4 (27%)          5 (33%)
       South Carolina           325      22 (7%)     188 (58%)      115 (35%)          78      8 (10%)      44 (56%)         26 (33%)
       South Dakota             214        4 (2%)    204 (95%)          6 (3%)         65      2 (3%)       60 (92%)            3 (5%)
       Tennessee                499      34 (7%)     382 (77%)       83 (17%)        186       16 (9%)     140 (75%)         30 (16%)
       Texas                    870     98 (11%)     601 (69%)      171 (20%)        250     38 (15%)      173 (69%)         39 (16%)
       Utah                     148      11 (7%)     102 (69%)       35 (24%)          52      7 (13%)      30 (58%)         15 (29%)
       Vermont                  143        1 (1%)    124 (87%)       18 (13%)          49      1 (2%)       43 (88%)           5 (10%)
       Virginia                 337      16 (5%)     251 (74%)       70 (21%)          99    10 (10%)       70 (71%)         19 (19%)
       Washington               334      31 (9%)     156 (47%)      147 (44%)          97    16 (16%)       41 (42%)         40 (41%)
       Washington, DC              2    2 (100%)         0 (0%)         0 (0%)          1    1 (100%)         0 (0%)           0 (0%)
       West Virginia            255      12 (5%)     226 (89%)        17 (7%)          57      4 (7%)       49 (86%)           4 (7%)
       Wisconsin                538      45 (8%)     413 (77%)       80 (15%)        132      15 (11%)     101 (77%)         16 (12%)
       Wyoming                   97        6 (6%)     78 (80%)       13 (13%)          26      5 (19%)      17 (65%)           4 (15%)
       American Samoa              1    1 (100%)         0 (0%)         0 (0%)          0
       Guam                        2    2 (100%)         0 (0%)         0 (0%)          1    1 (100%)        0 (0%)           0 (0%)
       Puerto Rico               42     40 (95%)         1 (2%)         1 (2%)          3     2 (67%)        1 (33%)          0 (0%)
       Northern Marianas           3    3 (100%)         0 (0%)         0 (0%)          1    1 (100%)        0 (0%)           0 (0%)
       Virgin Islands              4    4 (100%)         0 (0%)         0 (0%)          0
                             19,595         1,743        13,987          3,865     5,326          710          3,563            1,053
                                             (9%)         (71%)          (20%)                  (13%)          (67%)            (20%)

                   *Data provided on FY 2002 AFG program applicants by USFA AFG program office, January 27, 2003
                   **Data provided on FY 2002 AFG program grant recipients by USFA AFG program office, February 13, 2003



                             A Review of the Assistance to Firefighters Grant Program                                        Page 39
Appendix D
Items Authorized Under the AFG Program that are also Authorized Under the State Homeland Security Grant
Program



                                                                                   Authorized
      Categories of                                               Authorized           and           Not
       Authorized             Items Authorized for Purchase       and Funded       Occasionally   Authorized
   Equipment Purchase                Under SHSGP                  under AFG          Funded       Under AFG
     Under SHSGP                                                   Program         under AFG       Program
                                                                                    Program
        #1—Personal
    Protective Equipment
        (Level A-Fully
     encapsulated, liquid,   Fully Encapsulated Liquid and
                                                                                        X
       vapor protective      Vapor Protection Ensemble
          ensemble)
                             Fully Encapsulated Training Suits                          X
                             Closed-Circuit Rebreather (SCBA)          X
                             Spare Cylinders/Bottles for
                                                                       X
                             Rebreathers (SCBA)
                             Chemical Resistant Gloves                                  X
                             Personal Cooling System                                    X
                             Hardhat/Helmet                                             X
                             Chemical/Biological Protective
                                                                                        X
                             Undergarment
                             Inner Gloves                                               X
                             Chemical Resistant Tape                                    X
                             Chemical Resistant Boots                                   X
                             Chemical Resistant Outer Booties                           X
   (Level B-Liquid Splash    Liquid Splash Resistant Chemical
                                                                                        X
    Resistant Ensemble)      Clothing
                             Liquid Splash Resistant Hood                               X
                             Closed-Circuit Rebreather (SCBA)                           X
                             Spare Cylinders/Bottles for
                                                                                        X
                             Rebreathers (SCBA)
                             Chemical Resistant Gloves                                  X
                             Personal Cooling System                                                  X
                             Hardhat/helmet                                             X
                             Chemical/Biological Protective
                                                                                        X
                             Undergarment
                             Inner Gloves                                               X
                             Chemical Resistant Tape                                    X
                             Chemical Resistant Boots                                   X
                             Chemical Resistant Outer Booties                           X
   (Level C-Liquid Splash
    Resistance Ensemble-     Liquid Splash Resistant Chemical
                                                                                        X
     used when airborne      Clothing
    substances are known)
                             Liquid Splash Resistant Hood                               X
                             Negative Pressure Air Purifying
                                                                                        X
                             Respirator




Page 40                              A Review of the Assistance to Firefighters Grant Program
Appendix D
Items Authorized Under the AFG Program that are also Authorized Under the State Homeland Security Grant
Program



                                    Powered Air Purifying Respirator                   X
                                    Equipment or System Batteries             X
                                    Chemical Resistant Gloves                          X
                                    Personal Cooling System                                       X
                                    Hardhat                                            X
                                    Inner Chemical/Biological
                                                                                                  X
                                    Resistance Garment
                                    Inner Gloves                                       X
                                    Chemical Resistant Tape                            X
                                    Chemical Resistant Boots                           X
                                    Chemical Resistant Outer Booties                   X
         (Level D-No respiratory
          protection and minimal
                                    Escape Mask for Self-Rescue                                   X
             skin protection is
                 required)
          #2—Explosive Device
              Mitigation and        Bomb Search Protective Ensemble                               X
               Remediation
                                    Chemical/Biological
                                    Undergarment for Bomb Search                                  X
                                    Protective Ensemble
                                    Cooling Garments                                              X
                                    Ballistic Threat Body Armor                                   X
                                    Ballistic Threat Helmet                                       X
                                    Blast/Ballistic Threat Eye
                                                                                                  X
                                    Protection
                                    Blast/overpressure Threat Ear
                                                                                                  X
                                    Protection
                                    Fire Resistant Gloves                     X
                                    Dearmer/Disrupter                                             X
                                    Real Time X-Ray Unit; Portable
                                                                                                  X
                                    X-Ray Unit
                                    CBRNE Compatible Total
                                                                                                  X
                                    Containment Vessel (TCV)
                                    CBRNE Upgrades for Existing
                                                                                                  X
                                    TCV
                                    Robot; Robot Upgrades                                         X
                                    Fiber Optic Kit                                               X
                                    Tents-standard or air inflatable for
                                                                                       X
                                    chemical/biological protection
                                    Inspection Mirrors                                            X
                                    Ion Track Explosive Detector                                  X
           #3—CBRNE Search          Hydraulic tools; Hydraulic Power
                                                                              X
          and Rescue Equipment      Unit
                                    Listening Devices; hearing
                                                                                       X
                                    protection
                                    Search Cameras                                     X




                            A Review of the Assistance to Firefighters Grant Program              Page 41
Appendix D
Items Authorized Under the AFG Program that are also Authorized Under the State Homeland Security Grant
Program



                         Breaking Devices                          X
                         Lifting Devices                           X
                         Blocking and Bracing Materials            X
                         Evacuation Chairs (for disabled)                           X
                         Ventilation Fans                          X
     #4—Interoperable
                         Land Mobile, Two-Way In-Suit
      Communications                                                                X
                         Communications
        Equipment
                         Antenna Systems                                            X
                         Personnel Alert System (PASS)             X
                         Personal Accountability Systems           X
                         Individual Portable Radios,
                         Software Radios, Portable
                         Repeaters, Radio Interconnect
                                                                   X
                         Systems, Satellite Phones,
                         Batteries, Chargers and Battery
                         Conditioning Systems
                         Computer Systems (designated
                         for use in an integrated system
                                                                                    X
                         to assist with detection and
                         communication efforts)
                         Portable Meteorological System                             X
                         Computer Aided Dispatch System            X
                         Commercially Available Crisis
                                                                                    X
                         Management Software
                         Mobile Display Terminals                  X
          #5—Detection
           Equipment
           (Chemical)    M-8 Detection Paper                                        X
                         M-9 Detection Paper                                        X
                         M-256 Detection Kit                                        X
                         M-256 Training Kit                                         X
                         M-18 Detection Kit                                         X
                         Hazard Categorizing (HAZCAT)
                         Kit                                                        X
                         Photo-Ionization (PID)                                     X
                         Flame Ionization Detector (FID)                            X
                         Surface Acoustic Wave Detector                                     X
                         Gas Chromatograph/Mass
                                                                   X
                         Spectrometer
                         Ion Mobility                                               X
                         Stand-Off Chemical Detector                                        X
                         M-272 Water Test Kit                                               X
                         Colormetric Tube/Chip Kit                                  X
                         Multi-gas Meter with Minimum of
                                                                                    X
                         O2 and LEL



Page 42                          A Review of the Assistance to Firefighters Grant Program
Appendix D
Items Authorized Under the AFG Program that are also Authorized Under the State Homeland Security Grant
Program



                                     Leak Detectors                                     X
                                     pH Paper/pH Meter                                  X
                                     Waste Water Classifier Kit                         X
                                     Oxidizing Paper                                    X
                                     Protective Cases for Sensitive
                                     Detection Equipment Storage and                    X
                                     Transport
               (Biological)          Point Detection Systems/Kits                                 X
          (Radiological/Nuclear)     Radiation Detection Equipment                      X
                                     Personal Dosimeter                                 X
                                     Scintillation Fluid                                X
                                     Radiation Monitors                                 X
             (Explosive)             Canines                                                      X
          #6—Decontamination
             Equipment
                                     Decontamination System for
                                     Individual and Mass Application
                (Chemical)           with Environmental Controls,                       X
                                     Water Heating System, Showers,
                                     Lighting, and Transportation
                                     Decon Litters/Roller Systems                       X
                                     Extraction Litters, Rollable                       X
                                     Runoff Containment Bladders,
                                     Decontamination Shower Waste
                                     Collection With Intrinsically-
                                                                                                  X
                                     safe Evacuation Pumps, Hoses,
                                     Connectors, Scrub Brushes,
                                     Nozzles
                                     Spill Containment Devices                          X
                                     Overpak Drums                                      X
                                     Non-Transparent Cadaver Bags                       X
                                     Hand Carts                                         X
                                     Waste Water Classification kits/
                                                                                        X
                                     strips
               (Biological)          HEPA Vacuum                                                  X
           #7—Physical Security
              Enhancement
                Equipment
          (Surveillance, Warning,
             Access/Intrusion
                 Control)
                                     Motion Detector Systems:
                (Ground)             Acoustic; Infrared; Seismic;                                 X
                                     Magnetometers
                                     Barriers: Fences; Jersey Walls                               X
                                     Impact Resistant Doors and gates                             X
                                     Portal Systems; Locking Devices
                                                                                                  X
                                     for Access Control



                             A Review of the Assistance to Firefighters Grant Program             Page 43
Appendix D
Items Authorized Under the AFG Program that are also Authorized Under the State Homeland Security Grant
Program



                            Alarm Systems                                                      X
                            Video Assessment/Cameras:
                            Standard, Low Light, IR,                                           X
                            Automated Detection
                            Personnel Identification: Visual;
                            Electronic; Acoustic; Laser;                                       X
                            Scanners; Cyphers/Codes
                            X-ray Units                                                        X
                            Magnetometers                                                      X
                            Vehicle Identification: Visual,
                                                                                               X
                            Electronic, Acoustic; Laser; Radar
          (Waterfront)      Radar Systems                                                      X
                            Video Assessment System/
                            Cameras: Standard, Low Light, IR,                                  X
                            Automated Detection
                            Diver/Swimmer Detection
                                                                                               X
                            Systems; Sonar
                            Impact Resistant Doors and Gates                                   X
                            Portal Systems                                                     X
                            Hull Scanning Equipment                                            X
                            Motion Detector Systems:
                            Acoustic; Infrared; Seismic;
                            Magnetometers                                                      X
                            Barriers: Fences; Jersey Walls                                     X
                            Alarm Systems                                                      X
                            Video Assessment/Cameras:
                            Standard, Low Light, IR,
                            Automated Detection                                                X
                            Personnel Identification: Visual;
                            Electronic; Acoustic; Laser;
                            Scanners; Cyphers/Codes                                            X
                            X-Ray Units                                                        X
                            Magnetometers                                                      X
                            Vehicle Identification: Visual;
                                                                                               X
                            Electronic; Acoustic; Laser; Radar
      (Sensors-Agent/       Chemical: Active/Passive; Mobile/
                                                                                       X
    Explosives Detection)   Fixed; Handheld
                            Biological: Active/Passive;
                                                                                       X
                            Mobile/Fixed; Handheld
                            Radiological                                               X
                            Nuclear                                                            X
                            Ground/Wall Penetrating Radar                                      X
    (Inspection/Detection   Vehicle & Cargo Inspection
                                                                                               X
          Systems)          System - Gamma-Ray
                            Mobile Search & Inspection
                                                                                               X
                            System - X-Ray




Page 44                             A Review of the Assistance to Firefighters Grant Program
Appendix D
Items Authorized Under the AFG Program that are also Authorized Under the State Homeland Security Grant
Program



                                    Non-Invasive Radiological/Chem/
                                    Bio/Explosives System - Pulsed                                X
                                    Neutron Activation
                                    Blast/Shock/Impact Resistant
          (Explosion Protection)                                                                  X
                                    Systems
                                    Protective Clothing                                           X
                                    Column and Surface Wraps;
                                    Breakage/Shatter Resistant Glass;                             X
                                    Window Wraps
                                    Robotic Disarm/Disable Systems                                X
             #8—Terrorism
                                    Data collection/information
           Incident Prevention                                                                    X
                                    Gathering Software
               Equipment
                                    Data Synthesis Software                                       X
                                    Geographic Information System
                                    Information Technology and                         X
                                    Software
                                    Law Enforcement Surveillance
                                                                                                  X
                                    Equipment
         #9—CBRNE Logistical
                                    Equipment Trailers                                 X
           Support Equipment
                                    Weather-tight Containers for
                                                                                                  X
                                    Equipment Storage
                                    Software for Equipment Tracking
                                                                                       X
                                    and Inventory
                                    Handheld Computers for
                                                                                       X
                                    Emergency Response Applications
                                    Small Hand Tools                          X
                                    Binoculars, Head-lamps, Range
                                                                              X
                                    Finders and Spotting Scopes
                                    Small Generators to Operate
                                    Light Sets, Water Pumps for               X
                                    Decontamination Sets
                                    Light Sets for Nighttime
                                                                              X
                                    Operations/Security
                                    Electrical Current Detectors                                  X
                                    Equipment Harnesses, Belts, and
                                                                              X
                                    Vests
                                    Isolation Containers for Suspected
                                                                                       X
                                    Chemical/Biological Samples
                                    Bull-horns                                         X
                                    Water Pumps for Decontamination
                                                                              X
                                    Systems
                                    Bar Code Scanner/Reader for
                                                                                       X
                                    Equipment Inventory Control
                                    Badging System Equipment and
                                                                                                  X
                                    Supplies
                                    Cascade System for Refilling
                                                                              X
                                    SCBA Oxygen Bottles



                            A Review of the Assistance to Firefighters Grant Program              Page 45
Appendix D
Items Authorized Under the AFG Program that are also Authorized Under the State Homeland Security Grant
Program



                          SCBA Fit Test Equipment and
                                                                    X
                          Software to Conduct Flow Testing
                          Testing Equipment for Fully
                                                                                     X
                          Encapsulated Suits
                          Cooling/Heating/Ventilation Fans                                   X
                          HAZMAT Gear Bag/Box                                        X
   #10—CBRNE Incident
                          Mobile Command Post Vehicles                               X
     Response Vehicles
                          Hazardous Materials (HazMat)
                                                                    X
                          Response Vehicles
                          Bomb Response Vehicles                                             X
                          Prime Movers for Equipment
                                                                                     X
                          Trailers
                          2-wheel Personal Transport
                          Vehicles for Transporting Fully
                          Suited Bomb Technicians, Level                                     X
                          A/B Suited Technicians to the Hot
                          Zone
                          Multi-wheeled All Terrain Vehicles
                          for Transporting Personnel and
                                                                                     X
                          Equipment to and from the Hot
                          Zone
   #11—Medical Supplies   Automatic Biphasic External
                                                                    X
    and Pharmaceuticals   Defibrillators and Carry Bags
                          Equipment and supplies for
                          establishing and maintaining a
                                                                    X
                          patient airway at the advanced life
                          support level
                          Blood Pressure Cuffs                      X
                          IV Administration Sets (Macro and
                                                                    X
                          Micro) and Pressure Infusing Bags
                          IV Catheters (14, 16, 18, 20, and
                                                                    X
                          22 gauge)
                          IV Catheters (Butterfly 22, 24 and
                                                                    X
                          26 gauge)
                          Manual Biphasic Defibrillators
                          (defibrillator, pacemaker, 12 lead)       X
                          and carry bags
                          Eye Lense for Lavage or
                                                                    X
                          Continuous Medication
                          Morgan Eye Shields                        X
                          Nasogastric Tubes                         X
                          Oxygen Administration Equipment
                                                                    X
                          and Supplies
                          Portable Ventilator                       X
                          Pulmonary Fit Tester                                       X
                          Syringes (3cc and 10cc)                   X
                          26 ga «“ needles (for syringes)           X




Page 46                           A Review of the Assistance to Firefighters Grant Program
Appendix D
Items Authorized Under the AFG Program that are also Authorized Under the State Homeland Security Grant
Program



                                   21 ga. 1 « “ needles (for syringes)       X
                                   Triage Tags and Tarps                     X
                                   Sterile and Non-Sterile Dressings,
                                                                             X
                                   All Forms and Sizes
                                   Gauze, all sizes                          X
             #12—CBRNE             NFPA Guide to Hazardous
                                                                             X
           Reference Materials     Materials
                                   NIOSH Hazardous Materials
                                                                             X
                                   Pocket Guide
                                   North American Emergency
                                                                             X
                                   Response Guide
                                   Jane’s Chem-Bio Handbook                  X
                                   First Responder Job Aids                  X




                           A Review of the Assistance to Firefighters Grant Program               Page 47
Appendix E
Highlights of the USDA Assessment of the FY2001 AFG Program



             Of 999 fire departments that received an AFG program grant and responded to the survey
             questions:

             •   99 percent were extremely satisfied or satisfied with the FY 2001 AFG program’s
                 ability to meet their fire related needs;

             •   97 percent said the AFG program grants have had a significant or moderate positive
                 impact on their department’s ability to handle a fire or fire-related incident.

             Of 116 fire departments that received AFG program funding for wellness and fitness
             programs and responded to wellness and fitness program survey questions:

             •   95 percent implemented fitness programs as a result of the funds provided;

             •   85 percent indicated their firefighters were enthusiastic about the wellness/fitness
                 program.

             Of 103 fire departments that received AFG program funding for training purposes and
             responded to training survey questions:

             •   99 percent said the AFG program funding allows their department to present initial
                 and/or regular in service training to firefighters;

             •   90 percent believed their fire department operates more efficiently and more safely.

             Of those fire departments that received AFG program funding for firefighting equipment
             and responded to firefighting equipment survey questions:

             •   98 percent reported a significant or marginal improvement in the operational capacity
                 for firefighting;

             •   99 percent reported a significant or marginal improvement in the safety of their
                 firefighters during emergency operations.

             Of those fire departments that received AFG program funding for personal protective
             equipment and responded to personal protective equipment survey questions:

             •   62 percent reported a reduction of injuries during firefighting operations




Page 48                          A Review of the Assistance to Firefighters Grant Program
Appendix E
Highlights of the USDA Assessment of the FY2001 AFG Program



                      Of 139 fire departments that received AFG program funding for vehicles and responded
                      to vehicle survey questions:

                      •    91 percent reported an improvement in firefighting capability;

                      •    88 percent reported an increase in firefighter safety;

                      •    62 percent reported a reduction in response time.28




       “Survey, Assessment, and Recommendations for the Assistance to Firefighters Grant Program,” prepared by the 2002-2003
      28

      U.S. Department of Agriculture’s Leadership Development Academy Executive Potential Program, January 31, 2003.


                            A Review of the Assistance to Firefighters Grant Program                                Page 49
Appendix F
Management Comments




Page 50               A Review of the Assistance to Firefighters Grant Program
Appendix F
Management Comments




                      A Review of the Assistance to Firefighters Grant Program   Page 51
Appendix F
Management Comments




Page 52               A Review of the Assistance to Firefighters Grant Program
Appendix F
Management Comments




                      A Review of the Assistance to Firefighters Grant Program   Page 53
Appendix F
Management Comments




Page 54               A Review of the Assistance to Firefighters Grant Program
Appendix F
Management Comments




                      A Review of the Assistance to Firefighters Grant Program   Page 55
Appendix F
Management Comments




Page 56               A Review of the Assistance to Firefighters Grant Program
Appendix F
Management Comments




                      A Review of the Assistance to Firefighters Grant Program   Page 57
Appendix F
Management Comments




Page 58               A Review of the Assistance to Firefighters Grant Program
Appendix G
OIG Evaluation of Management Comments



                   The OIG evaluated USFA’s written comments and has made changes to the draft report
                   where deemed appropriate. A summary of their written comments and our analysis
                   regarding the recommendations made in the report is as follows:

                   Recommendations

                   1. Require AFG program applicants to provide detailed information on their
                   operating budgets from the previous two years. This would allow TEPs to conduct
                   a more complete analysis of financial need and would provide the means to validate
                   grant recipients’ compliance with the Act’s “maintenance of operating expenditures”
                   requirement.

                   USFA disagrees with both parts of this recommendation. USFA believes this
                   recommendation assumes that all applicants formulate budgets and/or have details of
                   expenditures readily available and in reality much of the AFG customer-base is using less
                   structured budgetary systems. It is USFA’s contention that a technical evaluation panelist
                   who is familiar with fire and fire operations can take this figure and compare it to the
                   number of firefighters in the department, the numbers and types of apparatus, the number
                   of stations or facilities, the level of fire and rescue activity, the population served, and size
                   of the area protected and determine whether the fire department can operate effectively or
                   whether the department has financial needs. USFA believes the presumption cannot be
                   made that technical evaluation panelists would be able to interpret an income statement
                   or a balance sheet and determine financial need as effectively.

                   In addition, USFA commented that the “maintenance of operating expenditures”
                   requirement has to be validated for grant recipients only and, therefore, it is not necessary
                   to collect this information from all applicants. USFA further commented that it is the
                   joint responsibility of the program and grants management offices to validate that this
                   requirement had been met by grant recipients. This validation is currently accomplished
                   by way of site visits and additional assistance has been sought by USFA in establishing a
                   method to assess the maintenance of operating expenditures issue more effectively during
                   site visits.

                   The OIG believes that, even if an applicant uses a less structured method of budgeting,
                   it is a reasonable expectation for applicants to provide some details on their operating
                   budgets of the past two years, such as income and expenses. While it may be more
                   labor intensive, the OIG maintains that collecting this information will assist technical
                   evaluation panelists to conduct a more complete analysis of financial need of applicants.
                   In addition, while we are encouraged that USFA has sought assistance in establishing
                   a method to assess the maintenance of needs requirement more effectively during site



                        A Review of the Assistance to Firefighters Grant Program                            Page 59
Appendix G
OIG Evaluation of Management Comments



            visits, site visits are not made to 100 percent of the grant recipients. Therefore, by
            collecting this information upfront from all applicants, USFA, in coordination with
            FEMA’s grants management office, would have the necessary information to validate
            that the maintenance of operating expenditures requirement has been met by every grant
            recipient.

            2. Require AFG program applicants to answer the following question: “This fiscal
            year, are you receiving federal funding from any other grant program for the same
            purpose for which you are applying for this grant?”

            USFA agrees with this recommendation and will require applicants to answer this
            question if the AFG program exists in FY 2004.

            The OIG concurs with USFA’s response.

            3. Add a mandatory question on the Completeness Review Checklist that will
            ensure FEMA grants management specialists validate other federal funding sources
            to ensure that those funds are not for the same purpose as the funds requested under
            the AFG program.

            USFA suggested that the OIG redirect this recommendation to the FEMA grant
            management office as this office is not organizationally structured under USFA’s control
            and is responsible for completing the checklist with grant recipients.

            The OIG has redirected this recommendation to FEMA’s grants management office.

            4. Give additional weight to AFG program applicants that have regional written
            mutual aid agreements.

            USFA believes this recommendation may adversely affect a large portion of its
            constituents because these written agreements require a certain level of sophistication
            and/or effort that many fire departments do not possess. If implemented, USFA believes
            unfair competitive advantage may be given to the more sophisticated applicants and/or
            generate “written agreements” that are created to obtain the credit allotted by the program
            but are worthless with respect to achieving the desired goals. Additionally, USFA believes
            that a standardized agreement would have to be developed to accomplish the goals of
            regional, state or national interoperability and that the development of such an agreement
            is years away. Nevertheless, USFA commented that they would put this idea in front of
            its criteria development group for their FY 2004 program to see whether they find merit
            in the recommendation.



Page 60                        A Review of the Assistance to Firefighters Grant Program
Appendix G
OIG Evaluation of Management Comments



                   The OIG maintains that some additional weight should be afforded to AFG program
                   applicants that have regional written mutual aid agreements. The OIG believes
                   that placing this recommendation under consideration of the AFG program criteria
                   development group is a step in the right direction.

                   5. Enforce the timely submission of semiannual financial and performance reports
                   by suspending the draw down of funds until the required reports have been
                   submitted in according to program guidance.

                   USFA personnel commented that the report does not inform them when the funds were
                   drawn. Before they can ascertain whether this may be a problem, USFA would need to
                   know how many of the draws were taken after the report was deemed late, versus how
                   much was drawn before the performance report was due. USFA disagrees that they are
                   unable to assess whether funds are being used as intended by the grant award without the
                   reports. With the automated payment system, grantees have a text field whereby they can
                   inform USFA of the purpose of any payment request. USFA personnel said they often
                   challenge a request based on the information contained in this field. USFA will agree,
                   however, to deny any payment requests for grantees whose performance report is over 30
                   days past due, and USFA has implemented such a procedure.

                   The OIG did not intend to determine whether or not funding had been drawn down
                   within the initial reporting period. Rather, our analysis was intended to illustrate that
                   grant recipients were not submitting their performance and financial reports in a timely
                   manner. In addition, the OIG acknowledges that USFA’s has other methods to assess
                   whether funds are being used as intended by the grant award. This report, however, is
                   an additional tool to make that assessment. The OIG is encouraged that USFA will deny
                   payment requests for grant recipients whose performance report is over 30 days past due.

                   6. Increase, to the extent that staffing capability permits, the minimum AFG
                   program grant recipient site visits performed by USFA Regional Fire Program
                   Specialists.

                   USFA believes the report implies that there is a problem with the expenditures of
                   funds but there is no data in the report to support this finding. USFA conducted over
                   400 site visits in the last year and those visits turned up no systemic problems much
                   less any problems with the efficient and effective expenditure of funds. In addition,
                   USFA acknowledges the human resources dedicated to this program are scarce and it
                   is this scarce resource that is necessary to conduct these very time-consuming tasks.
                   As such, USFA commented that they would have to decline implementation of the
                   recommendation to increase the minimum number of site visits. USFA points out,



                       A Review of the Assistance to Firefighters Grant Program                      Page 61
Appendix G
OIG Evaluation of Management Comments



            however, that they are substantially increasing their regional monitoring capacity by
            hiring more staff for each of the regional offices and will be directing this new capacity
            toward the conduct of increased desk monitoring activities already performed by the
            regional staff.

            The OIG believes, with the current minimum number of site visits conducted, USFA has
            established a low assurance that the expenditure of funds is efficient and effective. The
            OIG still maintains, to the extent that staffing capability permits, that USFA increase the
            minimum AFG program grant recipient site visits performed. The OIG acknowledges
            that the hiring of more staff for each regional office and directing this capacity toward
            conducting more desk monitoring activities is a positive step. However, unless some staff
            resources are directed to conduct actual site visits, the assurance will remain low and will
            not contribute to the accomplishment of our recommendation.

            7. Continue efforts to develop, formalize, and implement short and long term
            performance measures to ensure that the AFG program is addressing the needs and
            capabilities of the fire service as a whole and is affecting recipient communities in a
            positive manner.

            USFA commented that they would comply provided that the OIG remove the word
            “basic” from this recommendation.

            The OIG removed the word “basic” from this recommendation and concurs with USFA’s
            response.

            8. Use “A Needs Assessment of the U.S. Fire Service” as an additional tool when
            defining AFG program priorities and evaluation criteria.

            While USFA believes the needs assessment is a valuable resource, they do not agree it
            should be used to define the program’s goals and direction. USFA further commented
            that the usefulness of the needs assessment, which was conducted in 2001, as a guide
            for setting program policy and program priorities for 2004 or 2005 pales in comparison
            to their current process, i.e., using active fire service representatives to identify more
            immediate priorities. The current process also allows USFA to take new initiatives into
            consideration such as focusing funding on preparedness for events involving weapons of
            mass destruction.

            The OIG believes the report, A Needs Assessment of the U.S. Fire Service, is an additional
            tool for use by USFA when defining AFG program priorities and evaluation criteria. We
            maintain that the report should be used in concert with the existing process.



Page 62                         A Review of the Assistance to Firefighters Grant Program
Appendix G
OIG Evaluation of Management Comments



                   9. Expressly advise all potential AFG program applicants that there is a separate
                   application, application period, and set of eligibility criteria for the Fire Prevention
                   and Safety program.

                   USFA commented they do not know how they would be expected to implement this
                   recommendation. In their Interim Final Rule published in the Federal Register in
                   2002, the Final Rule also published in the Federal Register in 2003, program guidance
                   published on the FEMA websites, applicant workshops, etc., they have “expressly advise
                   all” that they have two separate fire prevention programs. USFA believes they have done
                   about as much as they can to make this distinction clear.

                   USFA indicated, however, this recommendation may be overtaken by events as they are
                   seeking comments from their criteria development panel for FY 2004 on their proposal
                   to remove the fire prevention program as one of the four eligible program areas under the
                   AFG Program. The result would be one sole program for fire prevention, separate and
                   apart from the firefighting segment.

                   The OIG acknowledges the efforts made by USFA to distinguish one program from
                   the other. Throughout our review, however, we observed and were told that confusion
                   remains that these two programs are separate. The OIG, however, is encouraged by
                   USFA’s proposal to combine the programs into one program for fire prevention, separate
                   and apart from the firefighting segment. This course of action, if accepted, would comply
                   with the intent of our recommendation.




                       A Review of the Assistance to Firefighters Grant Program                      Page 63
Appendix H
Recommendations



            1. Require AFG program applicants to provide detailed information on their operating
               budgets from the previous two years. This would allow TEPs to conduct a more
               complete analysis of financial need and would provide the means to validate grant
               recipients’ compliance with the Act’s “maintenance of operating expenditures”
               requirement.

            2. Require AFG program applicants to answer the following question: “This fiscal year,
               are you receiving federal funding from any other grant program for the same purpose
               for which you are applying for this grant?”

            3. Add a mandatory question on the Completeness Review Checklist that will ensure
               FEMA grants management specialists validate other federal funding sources to ensure
               that those funds are not for the same purpose as the funds requested under the AFG
               program.

            4. Give additional weight to AFG program applicants that have regional written mutual
               aid agreements.

            5. Enforce the timely submission of semiannual financial and performance reports by
               suspending the draw down of funds until the required reports have been submitted in
               according to program guidance.

            6. Increase, to the extent that staffing capability permits, the minimum AFG program
               grant recipient site visits performed by USFA Regional Fire Program Specialists.

            7. Continue efforts to develop, formalize, and implement short and long term
               performance measures to ensure that the AFG program is addressing the needs and
               capabilities of the fire service as a whole and is affecting recipient communities in a
               positive manner.

            8. Use “A Needs Assessment of the U.S. Fire Service” as an additional tool when
               defining AFG program priorities and evaluation criteria.

            9. Expressly advise all potential AFG program applicants that there is a separate
               application, application period, and set of eligibility criteria for the Fire Prevention
               and Safety program.




Page 64                         A Review of the Assistance to Firefighters Grant Program
Appendix I
Major Contributors to this Report



                      Marcia Moxey Hodges, Program Analyst, Department of Homeland Security, Office of
                      Inspections, Evaluations, and Special Reviews

                      Meredith L. Megles, Program Analyst, Department of Homeland Security, Office of
                      Inspections, Evaluations, and Special Reviews

                      Clifford N. Melby, Supervisory Program Analyst, Department of Homeland Security,
                      Office of Inspections, Evaluations, and Special Reviews




                          A Review of the Assistance to Firefighters Grant Program                 Page 65
Appendix J
Report Distribution




                      Department of Homeland Security

                      Chief of Staff, Deputy Secretary
                      DHS OIG Liaison
                      Emergency Preparedness and Response Directorate
                             Federal Emergency Management Agency
                             United States Fire Administration

                      Office of Management and Budget

                      Homeland Bureau Chief
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committee as Appropriate




Page 66                          A Review of the Assistance to Firefighters Grant Program
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General (OIG)
at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at
www.dhs.gov.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations, call the OIG
Hotline at 1-800-323-8603; write to Department of Homeland, Washington, DC 20528,
Attn: Office of Inspector General, Investigations Division – Hotline. The OIG seeks to
protect the identity of each writer and caller.
